<html>
<title> - [H.A.S.C. No. 113-31] RECENT DEVELOPMENTS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-31]

                   RECENT DEVELOPMENTS IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 17, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
80-760                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, April 17, 2013, Recent Developments in Afghanistan....     1

Appendix:

Wednesday, April 17, 2013........................................    43
                              ----------                              

                       WEDNESDAY, APRIL 17, 2013
                   RECENT DEVELOPMENTS IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Dunford, Gen Joseph F., Jr., USMC, Commander, International 
  Security Assistance Force and United States Forces--Afghanistan     3

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F., Jr...................................    50
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Smith, Hon. Adam.............................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    69
    Ms. Hanabusa.................................................    69
    Mr. Scott....................................................    69

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    76
    Mr. Carson...................................................    76
    Mr. Enyart...................................................    78
    Mr. Langevin.................................................    73
    Mr. Wittman..................................................    74
                   RECENT DEVELOPMENTS IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 17, 2013.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Good morning, 
ladies and gentlemen. The House Armed Services Committee meets 
to receive testimony on the recent developments in Afghanistan.
    Today we have with us General Joseph Dunford.
    General Dunford, thank you for your leadership. Thank you 
for the great job you are doing. Will you please convey our 
best to those men and women that you are serving with there in 
Afghanistan when you return?
    General Dunford. I will do that, Chairman.
    The Chairman. Great.
    The NATO [North Atlantic Treaty Organization] mission has 
entered a period of transition. Although NATO has not fully 
transitioned security efforts of Afghan lead, President Obama 
already has announced the withdrawal of half of the U.S. forces 
in Afghanistan by this time next year.
    In my view, the President's approach is fraught with 
unnecessary risk. Nevertheless, on my recent trip to the 
region, I was impressed with how far the Afghan security forces 
have come. Their capabilities and willingness to fight for 
their country are remarkable.
    The fundamental question before us is how the United States 
will continue to preserve U.S. national security interests 
after 2014. One of the key components to answering this 
question, in addition to the President's forthcoming decision 
on post-2014 troop presence and mission set will be the 
Bilateral Security Agreement that the Administration is 
currently negotiating with the government of Afghanistan.
    After over 10 years of war, the American people are 
understandably war-weary. Clearly, the situation in Afghanistan 
and the region is challenging and complex. But Afghanistan is 
directly connected to our vital national security interests, so 
we must get this right. We owe nothing less to the victims on 
9/11, the U.S. troops and their families who have served and 
sacrificed and our sons and daughters who may have to return if 
we get this wrong.
    The simple justice that comes from that principled position 
cannot be overstated.
    General Dunford, again, we are extremely grateful for your 
service to our country and for the job that you are performing 
right now in the most critical part of the world. I look 
forward to your testimony.
    Mr. Smith.
    [The prepared statement of Chairman McKeon can be found in 
the Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I share in your 
comments about the outstanding job General Dunford has done and 
the job that our troops have done in a very, very difficult 
environment.
    I have been there many times myself and I have seen the 
progress, and not just in Kabul, not just in the capital, but 
out in some of the tougher regions, down in Helmand, down south 
in Kandahar and other places. Our men and women have done an 
amazing job and they did it by putting their lives on the line 
and going out there and cleaning up places that needed to be 
cleaned up and giving the Afghan people the chance in a more 
stable future.
    So we definitely recognize the service, the sacrifice, and 
the outstanding job that they have done and admire the progress 
that has been made.
    I also want to say that I thank General Dunford, I heard 
some of his comments yesterday. I think it has been clear for 
some time what our goals are in Afghanistan. I have always had 
a great frustration that people say we don't know what we are 
doing there. We know exactly what we are doing there.
    We want to make sure that we have an Afghan government that 
can stand, that can be stable, that has security and governance 
without us, because we cannot have a permanent presence there. 
We want to deny Al Qaeda the ability to return to Afghanistan 
and use it as a safe haven. And really that second goal is tied 
directly to the first of having an Afghan government that can 
stand and survive against the Taliban, against potential AQ [Al 
Qaeda] elements. I think that has been clear from the start.
    Those are modest, realistic goals. We are not going to 
eliminate the Taliban from the Afghanistan-Pakistan region. The 
question is can we contain them and what is the best strategy 
for containing them? And the best strategy for containing them 
is doing our level best to train the Afghan security forces to 
be in a position to do that. And I think we have made enormous 
progress on that front and we are headed in the right 
direction.
    But part of doing that is making it clear that eventually 
we are going to leave. Eventually they are going to have that 
responsibility. We cannot be a permanent crutch. We have to 
transition. And we have seen that.
    As we have moved from district to district and province to 
province, we have turned over slowly and gradually and I think 
very intelligently greater responsibility to those Afghan 
national security forces. We haven't just said, woop, you are 
on your own and pulled out. We have been transitioning in a way 
to build their strength, capability and durability.
    Now there are no guarantees, no doubt about that. This is a 
very, very difficult part of the world. It will be a very, very 
difficult part of the world 5 years from now, 10 years from 
and, odds are, 20 years from now. But we have put the Afghan 
national security forces in the best possible position to be 
able to, at a minimum, hold, to stop the Taliban from taking 
back over the government and giving Al Qaeda a safe haven.
    And as we go forward, we have to try to envision what our 
role is going to be. And I will agree with the Chairman, I 
think the single most important thing right now is to get that 
Bilateral Security Agreement to eliminate some of that 
uncertainty as to what exactly our role is going to be post-
2014.
    I know General Dunford is working hard on that. I know 
General--sorry, President Karzai is not always the easiest 
person to work with to get there, but I know that is a huge 
priority.
    But at the end of the day, we cannot stay in Afghanistan 
forever for a wide variety of reasons, but the only one I will 
point out here is that if we do, the Afghan government will 
never truly be sovereign, will never truly be stable and will 
never truly have the respect of the Afghan people that it needs 
to be the sustainable government that we need it to be.
    So I think the path the President and General Dunford and 
others have put us on, though not easy, though not full of 
guarantees, it is the best, smartest path to put us in a 
direction where we can have the security goals that we strive 
for in that very, very difficult part of the region.
    I thank General Dunford again for his service. I look 
forward to his testimony and to the questions from the panel. I 
yield back, thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 48.]
    The Chairman. Thank you.
    General Dunford.

   STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, COMMANDER, 
   INTERNATIONAL SECURITY ASSISTANCE FORCE AND UNITED STATES 
                      FORCES--AFGHANISTAN

    General Dunford. Good morning, Chairman McKeon, Ranking 
Member Smith, distinguished members of the committee. I 
appreciate the opportunity to appear before you this morning 
and represent the men and women of the U.S. Forces--
Afghanistan.
    Thanks to your leadership and support, they are well 
trained and well equipped. Their extraordinary courage and 
performance reflects that support. U.S. Forces--Afghanistan 
remains focused on denying safe haven in Afghanistan to Al 
Qaeda terrorists who attacked our Nation on 9/11 and denying 
the Taliban who harbored them the ability to overthrow the 
Afghan government.
    We recognize that our national interests in the region are 
served by a secure and stable Afghanistan at peace with its 
neighbors. I appear before you this morning confident in the 
cardinal direction of the campaign. My confidence is based on 
the very real progress we have made since the surge of forces 
that began in late 2009. And that surge has allowed us to move 
the campaign forward.
    The constant pressure we have exerted on the remnants of Al 
Qaeda in Afghanistan has disrupted their ability to plan and 
conduct operations in the West. Our coalition Afghan partner 
operations have pushed the Taliban away from populated areas 
and prevented them from meeting their campaign objectives in 
2012.
    While they remain resilient, they are less of an 
existential threat to the Afghan government than they were in 
2011. Most significantly, our efforts since 2009 have provided 
the Afghan forces the time and space they need to grow and 
assume the lead.
    Today the Afghan forces have recruited and fielded most of 
their authorized strength of 352,000. They are leading 
approximately 80 percent of all combat operations currently 
being conducted. And they have lead security responsibility for 
territory where nearly 90 percent of the population lives.
    Later this Spring, in line with the plan outlined at the 
Lisbon and Chicago summits, Afghan forces will be in the lead 
for combat operations across the nation. Today's hearing truly 
comes at an inflection point in the Afghan campaign. There are 
many reasons to be optimistic.
    That said, there are significant challenges we must 
overcome to meet our objectives. Up to this point, it is fair 
to say we were focused on growing the size of the Afghan 
national security forces. We are now focused on improving the 
quality of the forces. In the months ahead, we will focus on a 
wide range of issues to include leadership development, 
ministerial capacity, aviation, and the systems to process 
these and the institutions necessary to support the modern 
professional army.
    In the coming months we will also need to address very real 
political and psychological factors that will affect the 
outcome of the campaign. With regard to political factors, we 
are at a point in the campaign where there is real tension 
between increasing aspirations of Afghan sovereignty and the 
reality of operations conducted in accordance with the U.N. 
[United Nations] Security Mandate, the Law of Armed Conflict, 
and the Military Technical Agreement. Properly managing that 
tension is now a campaign imperative.
    The psychological aspect of the campaign is equally 
important right now. Psychology will influence the performance 
of the Afghan forces this summer and affect the critical 
elections of 2014. We confront growing uncertainty in 
Afghanistan and in the region. Many Afghans have told me they 
no longer fear the Taliban as much as they fear what will 
happen after 2014.
    One Afghan described it to me as the Y2K [year 2000] 
effect. There is a growing sense that December 2014 is a cliff 
for the Afghan people. That dynamic must be addressed with a 
credible, compelling narrative of U.S. commitment. Absent 
confidence in the hope for a brighter future, Afghan leaders, 
the Afghan people, and regional actors will continue to hedge 
and plan for the worst case. The behaviors associated with that 
mindset have the very real potential to undermine the campaign.
    In closing, there is a great deal to be optimistic about at 
this point. But we are in the decisive phase of transition. The 
progress we have made to date provides real opportunity but not 
inevitability. There will continue to be challenges that will 
test our will and our endurance. But in the end, if we define 
winning as completing political and security transition, while 
rendering Al Qaeda operationally ineffective, if we define 
winning as setting the conditions for the Afghans to exploit 
the decade of opportunity that will come in 2015, I firmly 
believe that we can win.
    Thank you again for the opportunity to appear before you 
this morning. And Chairman, I look forward to your questions.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 50.]
    The Chairman. Thank you very much, General. You know when I 
was there in theater a few weeks ago, it was the most 
encouraging trip I have had, the time you spent with us, the 
briefings that we had, the things that we were able to see as 
we traveled to different regions. I just felt more positive 
than I felt in the other visits I have had there. Although each 
of them seems to, I have seen improvement.
    And one of the things I heard there was that when the war 
started there were about 1 million Afghan children going to 
school and probably none of them were girls. And now it is over 
8 million and a lot of them are girls. When I was there the 
time before, they opened a school down in Marjah. When I had 
been there before we couldn't go to Marjah.
    And the Marines were firmly in control and the school was 
open. They had 500 kids that were really excited about the 
opportunity of going to school. About a third of them were 
young girls. Not a school like our kids go to here in America, 
just a humble building out of adobe with a few classrooms and a 
couple of tents and 10 teachers and 500 kids. But it was great 
for them. And I just, I was really optimistic when we left.
    You know I think if we can continue to have a presence 
there, if we can get this Bilateral Security Agreement, if we 
can have enough security that we can go in and teach them how 
to use new agricultural methods. I looked at each of their 
little plots, you know, as we were flying around. That could 
become a prosperous country. It could be a very good story in 
the future. Probably when none of us are still around.
    It would be based though, on what you have done to this 
point. What you and Admiral Cunningham and the efforts you are 
making now on that Bilateral Security Agreement. Because I 
think if we don't get that, if we don't leave a presence, if we 
end up like we did pulling out of Iraq then none of that, I 
fear, will be able to come to pass.
    In your view General, when would you like to see the BSA 
[Bilateral Security Agreement] concluded, assuming it wasn't 
yesterday? If the negotiations drag on, what are your concerns 
from a military options and planning perspective?
    General Dunford. Chairman, thank you. As you alluded to, 
the Bilateral Security Agreement is critical. That will inform 
our presence post-2014. The U.N. Security Mandate will expire 
in December 2014, so our presence post-2014, will be based on 
the agreement that we make with the Afghan government.
    There are really two issues with the Bilateral Security 
Agreement. One is the internal audience and that is to address 
this idea of uncertainty and lack of confidence that the Afghan 
people have about the future. And from my perspective the 
Bilateral Security Agreement will be the physical manifestation 
of our commitment post-2014 and really form the foundation of 
an effective narrative.
    I mentioned in my opening comments that we needed a clear, 
compelling narrative for the future to help overcome the 
Taliban message which has been one of abandonment and this Y2K 
effect that I described.
    The other reason why the Bilateral Security Agreement is 
important is because our coalition partners are very much 
looking to the United States to lead with regard to post-2014. 
And they are going to need the time to generate the political 
will in their capitals and do the detailed budget planning, 
just as we have to do, for a post-2014 presence.
    Originally the Agreement was to have that signed not later 
than November of 2013. When President Obama met with President 
Karzai in January they agreed to accelerate that timeline. We 
are now cautiously optimistic that we would get that in May or 
June. I think it is very important that we get that before the 
2013 fighting season.
    As the Afghans go into the 2013 fighting season, and they 
are absolutely going to be in the lead as we go into the 2013 
fighting season, the information environment in which they will 
operate in 2013, will be very much informed by the sense of 
commitment that we provide about post-2014. And again, I 
believe that the cornerstone of that commitment is the 
Bilateral Security Agreement.
    I think it is very, very important, both from a 
psychological perspective inside the country, as well as for 
our ability to form a coalition post-2014. And I would strongly 
recommend we do that. I think that the coalition that we have 
had over the past several years has been very effective and I 
think we want to continue to incentivize our coalition partners 
to participate with us as we go into the post-2014 mission.
    The Chairman. Given that NATO has a planning recommendation 
of 8,000 to 12,000 troops for the post-2014 presence in 
Afghanistan, at what level can you conduct your train, advise, 
and assist mission there?
    General Dunford. Chairman, NATO has given us planning 
guidance for 8,000 to 12,000 troops that would allow us to be 
in the four corners of Afghanistan. It would allow us to 
provide an advise, assist effort at the corps level, and the 
zone level for police, the corps level for the army, and the 
zone level for police. It would also allow us to have an advice 
and assist effort inside of Kabul on the institutions, where 
they grow officers, where they grow non-commissioned officers, 
and where some of the sustainment training takes place in 
Kabul.
    So that 8,000 to 12,000 window would allow us to do that. 
And I would highlight that there are really two missions post-
2014. One of which is the train, advise, assist mission. The 
next big mission is the counterterrorism piece which is not 
included in those NATO numbers. My assumption is that that will 
be a U.S. with perhaps a coalition of the willing. But the NATO 
mission is specifically not for counterterrorism. And then we 
would also need additional forces to support the U.S. 
interagency specifically the State Department's mission post-
2014. So the 8,000 to 12,000 for NATO refers specifically to 
the train, advise, and assist mission post-2014 and not the 
other aspects of U.S. presence that may be in position after 
2014.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I think this was mentioned, the Bilateral Security 
Agreement is the key to that. Not to ask you to play 
psychologist for the moment, but where do you think President 
Karzai is at on doing that? He seems, it is kind of up to him. 
If he wanted to sign it, he could sign it tomorrow. What is our 
best approach collectively as a country to get President Karzai 
to where he needs to be on that agreement?
    General Dunford. Thanks Congressman. Over the last several 
weeks we have had direct engagement by President Obama, 
Secretary Kerry and Secretary Hagel on the Bilateral Security 
Agreement. And Ambassador Cunningham, our U.S. Ambassador to 
Afghanistan and I, also routinely engage, not less than once a 
week with President Karzai. I think that level of engagement is 
going to be required. President Obama spoke to President Karzai 
within the last week and addressed the Bilateral Security 
Agreement.
    I think it is important that President Karzai understand 
that Afghanistan actually needs the Bilateral Security 
Agreement more than we do. As important as it is for our 
national interests, as important as it is that we continue to 
have a presence post-2014 to ensure a stable and secure 
Afghanistan for our interests, certainly the presence of 
coalition forces post-2014 is absolutely and inextricably 
linked with a future Afghanistan in stability and security. As 
well as the resources that were pledged in Chicago and Tokyo 
are certainly associated with our ability to have a presence 
post-2014.
    So I think at this point the negotiation is to ensure that 
we are entering into a Bilateral Security Agreement as mature 
partners. We are both recognize that it is in our mutual 
interest to sign the Bilateral Security Agreement. And I think 
that is the framework that we are trying to provide right now 
asto ensure that there is clear recognition that this is 
something that the coalition needs to have, this is something 
the United States needs to have, what is most important is, 
that the future of Afghanistan is linked to the Bilateral 
Security Agreement.
    My sense is, Congressman, that the people in Afghanistan 
absolutely recognize that. There is uniform support for our 
presence post-2014, because I think there is a recognition that 
one, the security environment will still be threatened. But 
also there is a recognition that the international community 
needs to be there in some presence post-2014 for political 
transition and economic development as well.
    Mr. Smith. And can you talk a little bit about the 
relationship right now between Afghanistan and Pakistan. It is 
problematic I understand. What might be able to be done to get 
it to a better point where they can coexist better as we are 
drawing down?
    General Dunford. Congressman, at the strategic level, 
state-to-state, we are at a downpoint in the relationship 
between Pakistan and Afghanistan.
    And that has been exacerbated by some cross-border firing 
incidents of late in a recent incident where there was a 
dispute about a border post that Pakistan was providing some--
that was enhancing with some construction and Afghanistan took 
objection to it.
    What we have to do and what we are doing is, at the 
tactical level, establishing an effective military-to-military 
relationship not only between the coalition in Pakistan and 
Afghanistan, but, more importantly, one of the objectives we 
have before the end of 2014 is to have a constructive bilateral 
security, bilateral military-to-military relationship between 
Afghanistan and Pakistan.
    As difficult as it is right now at the strategic level, we 
have made a lot of progress at the tactical level in terms of 
that military-to-military relationship.
    We signed, in November, a tripartite border SOP, standard 
operating procedure,that allows us to bring the military 
together to solve these border disputes in a way that will 
prevent them from being strategic issues.
    President Karzai, 10 days ago in one of my meetings, 
approved my invitation of General Kayani and senior leadership 
from Pakistan to come to Kabul to meet with the minister of 
defense and senior leadership from Afghanistan.
    So I think these military-to-military exchanges that will 
develop a relationship of trust and a common understanding of 
the security issues along the border are the best way to 
mitigate the security challenges even as the strategic issues 
are being worked.
    But I think that today between Afghanistan and Pakistan, it 
will take a concerted diplomatic effort on the part of the 
United States, and I know Secretary Kerry is personally engaged 
in doing that, to bring those two countries together and ensure 
that the rhetoric that we have seen over the past several weeks 
does not become manifest in violence.
    Mr. Smith. Okay, thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, General, thank you for your leadership and I was 
sitting here just listening very carefully and I saw where the 
lady, the diplomat, was killed along with three, I think, 
soldiers and maybe an Afghan translator delivering books to a 
school and it kind of brings me to a point.
    You used the words that ``We are in a decisive phase.'' I 
have sat here for almost 20 years and especially since we went 
into Afghanistan and remember generals like yourself, who I 
have great respect for, using words like ``fragile,'' that ``We 
are making progress.''
    But it is always ``We are making progress and things are 
fragile.'' Well, the American people are financially broke. 
Yes, they would like to see an Afghan--Afghanistan, excuse me, 
that, you know, has got trolleys and everything else going for 
it.
    But when you have a country like ours where we can't even 
fix the schools in the third district of North Carolina, the 
home of Camp Lejeune, we can't even fix the roads.
    The point is, ``We are in a decisive phase''--How long are 
we going to be ``in a decisive phase''? Is that 1 year? Is that 
5 years? Or is it something we just don't know?
    General Dunford. Thanks, Congressman. When I referred to 
the decisive phase, I really am talking about the period 
between now and December 14. What is different I think about 
today than over the past decade is, one, the performance of the 
Afghan Security Forces and the progress we have made since 2009 
is real.
    In 2009--or 2008, I visited the Helmand Province and, at 
that time, there was one Afghan soldier for every 10 United 
States marines in Helmand Province. Today, there are three 
Afghans to every member of the coalition across the country.
    In 2008, we were leading 100 percent of the operations 
with, at best, an Afghan face on a coalition capability. Today, 
the Afghans are leading 80 percent of those operations and this 
summer they will be leading 100 percent of the operations 
across the country.
    We are now transitioning to the Afghan Security Forces 
providing security. The other thing that I would offer that is 
different about today is that 80 percent of the violence that 
occurs in Afghanistan today is where 20 percent of the 
population lives.
    We have successfully pushed the Taliban away from the 
populated area and inhibited their influence which had been 
there in some great amount just some short years ago.
    So, from my perspective, Congressman, if we are able to 
complete our transition to the Afghan Security Forces, then 
with a fairly limited investment post-2014 sustain the gains 
that we have made over the past few years, we will be in good 
shape.
    If we are able to provide oversight now and support as the 
Afghans conduct political transition in the spring of 2014 with 
inclusive, free and fair elections, we will be in a good 
position to transition politically at the end of 2014.
    And by staying engaged then diplomatically in the future, 
we will also be able to sustain the progress that we have made 
politically.
    So, Congressman, I think this is a significantly different 
period than it has been at any other point in the campaign. I 
absolutely, as I mentioned in my opening comments, can see our 
way through completion of our objectives.
    We came here originally to preclude Al Qaeda from operating 
out of Afghanistan and attacking the West. We can do that with 
our campaign plan as it currently stands.
    We came here to leave behind a stable, secure Afghanistan 
where Taliban could not return and we are at the point now, as 
a result of Afghan Security Forces growth, and the political 
transition that is ongoing, from meeting that objective.
    But I think more broadly as we think about what we should 
do in Afghanistan, we also need to look at Afghanistan's 
position in the region.
    And, from my perspective, what would really be dangerous is 
for us not to finish the job in Afghanistan and to leave a 
sanctuary in Afghanistan from which Pakistan could be 
stabilized.
    And I think, as you know, Congressman, because you were, in 
a very helpful way, working on our challenges with Pakistan, 
the nexus of extremism in that region with nuclear weapons is 
absolutely the area where we have vital national interest.
    Mr. Jones. General, really quickly because I have 36 
seconds, at what point will you and the others in the 
leadership make a decision as to the number of troops that we 
need to have after 2014?
    General Dunford. This spring, I will recommend to the 
President a range of numbers, Congressman. My recommendation 
will be that we refine that range after the Afghans assume the 
lead this summer.
    So in the fall of 2013, they will have been in the lead for 
the first time. We are not, in our last fighting season in 
Afghanistan, we are in our first fighting season in support. 
The Afghans are in the lead.
    And I think in the fall we will both have a feel for the 
Afghan Security Forces after their first summer. And we will 
also see what conditions are set for political transition and 
more specifically the elections that will take place in April.
    Mr. Jones. Thank you, General.
    Thank you, Chairman.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you so much, General, for your service to our 
country. I have two questions I would like to get in during my 
allotted time.
    One is following up on my good friend and colleague, also 
from North Carolina, Congressman Jones' question. Page 15 of 
your testimony, you talk about the Afghan Infrastructure Fund 
for critical infrastructure projects you say in the power, 
water and transportation and rule of law sectors.
    And then you talk about that these are, ``Carefully 
selected, assessed and coordinated'' and then you name several 
government agencies. What are examples of infrastructure 
projects that still need to be done?
    Because being from the poorest county of all 100 counties 
in North Carolina, I, too, share the concerns of Congressman 
Jones with regard to these further infrastructure projects when 
we have water, sewer, transportation problems and school 
problems right in North Carolina.
    General Dunford. Congressman, thank you. The major projects 
that we have in the Afghan Infrastructure Fund are related to 
power and transportation. From my perspective, one of the goals 
that we have set is we need to make sure that the gains that we 
have made are enduring, that they are sustainable.
    And so the basic fundamental transportation and power 
investments that we are making really are critical to economic 
development that will actually allow the Afghans to stand on 
their own and then alleviate the need for us to continue to 
support Afghanistan in the future.
    Mr. McIntyre. So these are projects you anticipate are near 
completion or are there any new projects that will be starting 
from scratch during the remaining time that we are there?
    General Dunford. No, Congressman, we have identified the 
projects that will take place between now and 2014 and we are 
in the process of completing those. And any projects that would 
take place after that would obviously take place in conjunction 
with the Afghan government.
    Mr. McIntyre. All right. Thank you, sir. On another note, I 
wanted to ask you the Afghan Army's Special Operations Command 
numbers more than 10,000. Do we anticipate this force being 
able to further U.S. counterterrorism objectives against Al 
Qaeda in Afghanistan as the U.S. minimizes its presence beyond 
2014? Are you comfortable with what their special operations 
command can do with regard to counterterrorism efforts?
    General Dunford. Congressman, I am and a key assumption we 
make about he post-2014 environment is that we will work very 
closely with the Afghan National Security Forces to ensure that 
our gains are sustainable.
    The investment that we have made in the Afghan Security 
Forces is for exactly the reason that you highlight is so they 
then can provide security post-2014 with minimal support from 
the United States to include dealing with the terrorist threat 
that originally emanated from Afghanistan.
    Mr. McIntyre. All right. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, thank you very much for your service. The 
people of South Carolina have a special appreciation of your 
service, of the military significance of Afghanistan.
    We have had a presence of the South Carolina Army National 
Guard, the largest deployment since World War II, nearly 1,600 
troops, led by our Adjutant General Bob Livingston.
    It really developed into an extraordinary situation of 
personnel at forward-operating bases all over the country where 
there was a relationship established with Afghan brothers where 
they felt like they were making such a positive difference.
    I have been there 11 times and, indeed, I have seen the 
substantial progress. I just hope it can be sustained.
    At the same time, I am concerned though about the green-on-
blue attacks, the insider attacks, that have created mistrust 
between our forces. What is being done to avoid and reduce 
these attacks?
    General Dunford. Congressman, first thanks for your many 
visits to Afghanistan. And with regard to the insider threat, 
for me that is first and foremost a force protection issue. It 
is one of the most important things to me as a commander and it 
certainly proved to be insidious in 2012.
    As a result of the insider threat attacks that took place 
in 2012, my predecessor ordered a detailed study into the 
causes of the insider threat and potential mitigation measures. 
Since the fall, we have significantly increased the 
counterintelligence capability both inside the Afghan forces as 
well as the U.S. forces.
    We have changed our tactics, techniques and procedures. 
Every time now there is a coalition meeting, engagement with 
Afghan counterparts, we have what we call a guardian angel, an 
overwatch to ensure that someone who is not actually 
participating in the event is there to provide security for our 
members.
    We have a team in Afghanistan today going around training 
on behavioral change so that our sailors, soldiers, airmen, and 
marines have situational awareness and can recognize when a 
threat is starting to build as they are conducting a meeting or 
some other engagement in Afghanistan.
    Our predeployment training has been tooled to address this 
threat and, as importantly, the Afghan leadership has taken 
this seriously, as well. They recognize that this could be a 
threat to the coalition. This could shatter the will back--back 
in the capitals, to include back here in the United States, and 
they have taken measures to also improve it.
    I am cautiously optimistic that we have made a--we have 
made significant progress with the insider threat. Last year at 
this time, we had 20 attacks. This year we have had three 
during that same period of time, but it is not something that 
we can be complacent about. And I can assure it, it is 
something that--it is--I an engaged with on a routine basis.
    Mr. Wilson. Well, thank you, and that is really reassuring. 
As a member of a military family, what you say has just great 
meaning to all of us.
    Thank you.
    I am also concerned about the Afghan National Security 
Forces not having the capability to sustain transitional 
facilities and equipment. This goes beyond operations and 
maintenance, and includes administrative and financial 
shortcomings.
    Are there plans for ISAF [International Security Assistance 
Force] to work with Afghans to develop a plan to extend U.S. 
support contracts to assist and mentor the security forces in 
building critical sustainment capabilities that will enable the 
continued tactical success?
    General Dunford. Congressman, it is really two pieces to 
that issue. You know, I think it is fair to say to date that we 
have focused on growing the quantity of the Afghan forces, and 
I refer to shifting to quality improvement.
    Part of that is building at the ministerial level the 
capacity to budget, to plan, to program, and to provide 
oversight for infrastructure in--in all levels of command.
    So, we have a concerted effort right now to do that. With 
regard to funding, the money that was pledged in Chicago at the 
Chicago Conference by the international community for Afghan 
National Security Forces post-2014 includes funds for the 
contracts to sustain the infrastructure that you highlighted, 
Congressman.
    Mr. Wilson. And that is reassuring.
    And, finally, we have enduring core interests in 
Afghanistan. Could you identify what you believe they are? And 
by a level of priority.
    General Dunford. Congressman, I think the reasons that we 
went to Afghanistan still remain.
    Number one is, we don't want it to be a sanctuary from 
which Al Qaeda can threaten our interests, as they did on 9/11. 
And we don't want the Taliban to return with their form of 
oppression that they exhibited in the 1990s to Afghanistan 
because they provided safe haven to the Al Qaeda on 9/11.
    The other interest that we have is a regional interest. 
Afghanistan's stability and security is critical to our 
interests across the region.
    As I mentioned, we have a nuclear state next door that has 
its own extremist threat inside of its borders. And I think it 
is very important that we provide stability and security in 
Afghanistan to preclude Afghanistan from being used as an area 
from which attacks can be conducted in a destabilizing way in 
Pakistan in the future.
    Mr. Wilson. Thank you very much.
    Mr. Thornberry. [Presiding.] Mr. Maffei.
    Mr. Maffei. Thank you. Thank you to the chairman.
    General, thank you for your service. And I--of course, I 
think every member of this committee wants to thank the men and 
women under your command.
    I am--I guess I want to associate myself to the comments of 
Mr. Jones. And my concern is, the ranking member referred to 
the need for the stable government in Afghanistan, and the fact 
that if we stay forever, we won't have that. But there is a bit 
of a chicken-or-egg problem. How can you--we have to stabilize 
the government, and at the same time, be leaving and looking 
like that--making sure that government has as much credibility 
as possible.
    So, one question I want to ask. When I was there in 2009, 
admittedly a while ago, there was a lot of concern about 
corruption within the government of Afghanistan.
    Are--is there a military role to play there? And are you 
working, and have you seen a reduction in corruption within the 
Afghan government?
    General Dunford. Congressman, there is absolutely a role 
for us to play. We have two areas that we focus on.
    Number one is, I think I have an obligation to ensure that 
any money that is provided to the Afghan National Security 
Forces is--achieves the intended effect. And so, we work very 
hard inside the Ministry of Defense, the Ministry of the 
Interior to ensure that we have transparent, accountable 
processes for any money that is spent on the Afghans.
    That is U.S. taxpayer dollars. I recognize the need to be 
good stewards of that funds, and so we focus on that.
    The other area that we focus on is contracting. And any 
contracts that we let with people to provide support for the 
United States to U.S. forces, as well as the coalition, are 
areas that we need to pay particular attention to.
    And then more broadly, we support the framework--the mutual 
accountability framework that came out of Tokyo, which provides 
the standards and the metrics that Afghanistan must meet in 
order for international assistance to continue to flow past 
2014.
    Mr. Maffei. Excellent. Thank you for that answer.
    I am extremely confident in your ability and the ability of 
your men and women to execute this so-called decisive phase 
until the end of 2014. My concerns are more in whether it can 
be sustained, and whether it can be sustained without a major 
U.S. presence.
    You have identified one of the goals as a stable and secure 
Afghanistan where the Taliban cannot return.
    Just to clarify, you mean could not return as the 
government? Not that there would be no Taliban at all, but 
could not return as the government?
    General Dunford. Congressman, thanks for the opportunity to 
clarify that.
    That is absolutely what I mean, is that the Taliban could 
not return as a government. My assumption is that at some 
point, this conflict has to be resolved with a political 
process that would include all Afghans being part of that 
political process.
    Mr. Maffei. And you really think that is possible within 
that current timeframe?
    General Dunford. No, I do not, Congressman, believe that 
that is possible within--between now and 2014. What is possible 
is that the government of Afghanistan can be stable and secure 
enough and more importantly, the Afghan security forces can be 
capable enough to preclude the Taliban coming back in a way 
that they were there in the 1990s.
    Mr. Maffei. So, if my understanding of you is correct, that 
although we may draw down and we may not be the leader of the 
combat missions, there will be a necessary U.S. military 
presence in Afghanistan of some size until that occurs? Until 
we get to that point?
    General Dunford. Our--to be clear, Congressman, our 
presence post-2014 will not be to fight the enemy, it will be 
to provide advice and advice assisted training to the Afghans 
as they provide security in Afghanistan post-2014.
    And I believe, based on the trajectory that they have been 
on over the last few years, that they will be able to do that 
post-2014.
    Mr. Maffei. Looking at some of the stuff we are working 
on--as the chairman mentioned, schools, certainly a worthy 
project--and other members have mentioned the infrastructure. 
But of course, we do have those needs here.
    Are we nation-building in Afghanistan? Is that a term you 
are comfortable with? Or--and if you are not comfortable with 
it, why aren't you comfortable with it?
    General Dunford. Congressman, we do not have a 
comprehensive nation-building plan in Afghanistan. It is far 
more limited than nation-building.
    What we are doing is supporting a counterinsurgency effort 
with projects that will assist in economic development and 
political transition.
    Mr. Maffei. And will those projects continue, and can they 
continue without a direct military presence? In other words, 
can USAID [United States Agency for International Development] 
and others take over where the military leaves off, as we, at 
some point, start drawing down in Afghanistan?
    General Dunford. Congressman, absolutely. Our plan now is, 
over time--and we are in the process--well into the process 
right now--of transitioning security of those projects to 
Afghan National Security Forces.
    Mr. Maffei. And you have confidence that that can occur by 
the end of 2014?
    General Dunford. It is occurring today, Congressman.
    Mr. Maffei. Okay. Thank you very much, General.
    I yield back.
    Mr. Thornberry. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you.
    General, good morning.
    What--can you give us some insight into what the current 
analysis is on the size of the Afghan security that will need 
to be put in place, or left in place whenever all of these 
things do occur? And what is the anticipation of when 
Afghanistan can actually pay for that security force themselves 
versus needing international help?
    General Dunford. Congressman, the current plan is--we have 
352,000 authorized Afghan security forces today. And added to 
that is the local police, which are authorized at a number of 
30,000.
    The international community has pledged support for those 
forces through 2016. We also have requested----
    Mr. Conaway. At those levels?
    General Dunford [continuing]. At those levels. And we have 
requested to do that through 2018 at 352,000, at which point 
the assumption is that the Afghans would then be responsible.
    The funds are, in part, from the United States. These were 
funds that were pledged in Chicago at the Chicago Conference. 
At that time, $4.1 billion was pledged; $1.3 billion from our 
international partners, $500 million from the Afghans 
themselves, and the United States pledged to provide the 
balance of those funds.
    Mr. Conaway. And as your team monitors the ability of those 
countries to fulfill those promises, are there--do you 
anticipate that that money will, in fact, be in place?
    General Dunford. Congressman, my assumption is that the 
elections in 2014 and the performance of the Afghan security 
forces over the next year are actually----
    Mr. Conaway. [Off mike.]
    General Dunford [continuing]. Are going to be--the money 
that is going to come from Chicago and Tokyo pledges is 
conditional based on progress, would be my assumption. And so, 
I don't understate the importance of the elections in 2014--in 
effect, a political transition--in ensuring that those--the 
money that was pledged, both in Chicago and Tokyo, Tokyo being 
development funds, Chicago being security funds; but I think 
they are all conditional based on progress over the next 18 
months.
    Mr. Conaway. All right. I appreciate that.
    On the Bilateral Security Agreement, can you tell us where 
the choke points are between us and Karzai on that issue?
    General Dunford. Congressman, there are a couple--I would 
prefer to--if we could discuss that in private or in a 
classified form----
    Mr. Conaway. Okay.
    General Dunford. We are at a pretty sensitive point in the 
negotiations right now, led by the State Department.
    There are a couple of issues. One, I can talk about, which 
is jurisdiction. And that is obviously a red line jurisdiction 
of U.S. personnel post-2014.
    Some of the other issues are more sensitive and may be more 
suited----
    Mr. Conaway. Well, I think I was mainly concerned with the 
issue of how we--how American troops fall under Afghan law, or 
don't fall under Afghan law post--that was obviously a bid deal 
in Iraq, and moved into different directions, so--but you are 
dealing with that one specifically? You think you could--you 
think--anticipate we will be able to get that one done, 
probably?
    General Dunford. Congressman, from a best military advice 
perspective, I wouldn't recognize--I wouldn't recommend at all 
that we be there post-2014. Absent a Bilateral Security 
Agreement that addresses----
    Mr. Conaway. Okay.
    General Dunford [continuing]. Properly addresses the issue 
of jurisdiction.
    Mr. Conaway. Can you speak to us a little bit about the 
economic development with respect to the huge mineral reserves 
and other hard--and other resources that Afghanistan has? Is 
there any progress being made at contracts with other private 
sector entities or other countries in order to develop those 
resources?
    General Dunford. Congressman, there are some basic 
contracts right now to begin exploration and assessment of how 
to exploit those minerals. But I would offer to you that the 
progress has been very slow.
    One of the aspects has been the security environment over 
the last several years, and is not much of an incentive right 
now for companies to come in and invest in Afghanistan.
    I believe we have an opportunity to turn that right now. 
Certainly the Afghan government is working that pretty hard. 
And our State Department is also working that pretty hard to 
make sure that people understand, and are able to make a much 
more realistic risk assessment about the prospects of 
investment, and successful investment in Afghanistan.
    Mr. Conaway. General, I want to make sure I thank you and 
your team, as well, and all those thousands and thousands of 
Americans who have served.
    It is instructive that your predecessors testifying like 
this, this room would have been packed. And I think it is 
instructive that the American people are, as the ranking member 
said, weary. But we cannot allow that weariness to drive bad 
decisions in us and to do things that are--here at the end 
game, cause us not to do what we need to do.
    So thank you for your team's willingness and strength of 
purpose to stick with this deal and see this through to the 
right conclusion. So, thank you.
    General Dunford. Thank--thank you, Congressman.
    Mr. Conaway. Yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And General Dunford, 
it is good to see you and thank you so much for your 
leadership.
    Having been to Afghanistan on a number of occasions, and 
focused largely on the role of women in building a civil 
society there, I wonder if you could talk a little bit about 
the role that ISAF plays in helping the Afghans to integrate 
women into their national forces, both the Army and the Navy.
    The fact that I can even ask you this question means that 
there has beenprogress. I certainly recognize that. However, we 
also know that in terms of numbers, there are about 1,700 women 
serving in the Afghan national police, 430 in the Afghan 
national army.
    We have had an opportunity to speak to a number of those 
women who have made what is an incredibly difficult decision to 
serve in that fashion. And I don't know whether we have what I 
might call some leverage, obviously, with the Bilateral 
Security Agreement. There may be some opportunities we have 
there to push harder on that issue, along with the coalition.
    What role do you think they can play in--that the women can 
play really in being integrated into the force and how 
important is that?
    General Dunford. Congresswoman, first, you do have the 
numbers right. That is the current state, both in the Afghan 
army and the Afghan police. I know that you know from your 
visits that we have folks specifically addressing the gender 
issue, both in our NATO training mission Afghanistan as well as 
at the ministerial levels in Afghanistan.
    To be honest with you, the progress is slow and I project 
it will remain slow over the next couple of years as we have 
some very real and fundamental cultural issues associated with 
women participating in the Afghan police and the Afghan 
national army. There are family reasons why they are 
discouraged from doing that and then there are cultural 
accommodation issues that cause them to be discouraged from 
doing that. Some of the latter pieces, the accommodation 
issues, are the ones that I think we can make the most progress 
on, in other words, facilities that would be suitable to have 
both males and females in the police and in the army. Education 
and training that can facilitate a command climate where women 
in the army and the police could be more welcome.
    But I very much think this is a heavy lift and one that 
will take some years. I can tell you that it is not only part 
of the U.S. mission and a task for the U.S. piece, but it is 
very heavily emphasized when I wear my NATO hat, that is part 
of the specific guidance we receive from NATO for the 
International Security Assistance Force mission.
    So we have made progress, as you pointed out, and we, in 
fact, even have general officers both in the police and in the 
army, but my projection is this--the pace of change for the 
police and the army may lead the rest of society, but it will 
certainly take place in the context of the pace of change 
culturally in the rest of society. And I think we are at a 
point where we are talking about a decade's long process.
    One of the things that the Chairman mentioned in his 
opening remarks, though, was the difference between young 
people who go to school today and young people who went to 
school 10 years ago. And he is exactly right. We have 8 million 
in school today where we had less than a million in school 10 
years ago.
    The other statistic I think that is important in this 
conversation is that 60 percent of the Afghan people are 25 
years or less at this particular time. And so the percentage of 
them that are educated, the percentage that have a more open 
view, I think, is increasing, and that bodes well for making 
improvements in these areas.
    But Congresswoman, I wouldn't be, I think, honest with you 
if I told you I thought that change would be immediate.
    Mrs. Davis. Yes, I certainly appreciate that, General.
    But I also wonder, given all the constraints, and we 
understand that, is there a role though within the agreement, 
and even within the funding of OCO [Overseas Contingency 
Operations], which we really have not received that funding 
yet, that we can dedicate some of that funding in a way to make 
sure that some of the goals that even the Afghan national 
forces have identified for the country are realized or at least 
that there is a timetable for that?
    General Dunford. Congresswoman, we have currently both 
resources and structure dedicated towards this mission and we 
can go back and take a look and see if increased resources and/
or emphasis in our structure would make an improvement.
    I do believe, right now, that both the police and the army 
are serious about addressing this. You asked why is it 
important? It is obviously important to tap into the full 
resources of the Afghan people as they provide security for the 
nation in the future. And I also think, as we have seen in this 
country, often the military by accommodating these kinds of 
issues, actually creates positive change in society as a whole.
    But I am not sure right now whether additional resources or 
structure would actually affect the pace.
    Mrs. Davis. Thank you. And also to the female engagement 
teams that have played such a significant role in hoping to 
bring those changes about in Afghanistan.
    The Chairman. The gentlelady's time has expired.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And General Dunford, 
thanks so much for your service in the United States Marine 
Corps and certainly now in Afghanistan.
    Could you describe to us where we are right now in this 
draw down in terms of total numbers, and how the mission has 
changed from the direct combat role to advise and assist and 
where we are in that transition?
    General Dunford. Congressman, I can.
    We have just under 60,000 U.S. forces on the ground in 
Afghanistan today. We will have 34,000 in February of 2014. We 
are now at the point where the vast majority of U.S. forces, 
with the exception of one combat brigade that really is 
providing some fore protection across the country, are all in a 
train, advise and assist mode.
    So when you come to visit us next, what you will see in an 
Afghan unit of about 600 or 700 are 15 or 16 members of the 
coalition in an advise and assist level. If you went to a 
single province in Afghanistan, there will be thousands of 
individuals in Afghan security forces providing security inside 
of that province. There will be hundreds of coalition forces 
providing advise and assist in training to that unit.
    As we move forward to what we call Milestone 2013, which 
will be in May or June of this year, at that point, the Afghans 
will be completely in the lead. We will provide by exception 
combat support in the form of aviation support, logistics 
support, intelligence and command and control. But we will not 
be conducting combat operations except in under extraordinary 
conditions.
    And frankly, that is for two reasons. One is because we are 
at the point where we have transitioned security to the Afghans 
and the other reason, that we have already reorganized U.S. 
forces on the ground in a security force assistance construct. 
So the numbers of combat forces that we actually have on the 
ground are very, very limited.
    Mr. Coffman. How are we doing in terms of mitigating green-
on-blue violence?
    General Dunford. Congressman, we have increased our 
counterintelligence capability both inside of U.S. forces in 
the coalition as well as Afghan forces. We have changed our 
tactics, techniques and procedures. We have changed our pre-
deployment training. In effect, we currently have on the ground 
a mobile training team that is addressing behavioral change so 
that our forces are better able to detect a threat.
    Mr. Coffman. Tell me what--how--what your recommendation is 
going to be for our footprint after 2014 and how would that 
mission change from even advise and assist?
    General Dunford. Congressman, there are really three pieces 
of the mission post-2014. There is the advise and assist for 
the Afghan security forces. There is the counterterrorism 
mission. And then there is the support that we will provide to 
the U.S. Government interagency, specifically to State 
Department post-2014.
    I believe we should be in the four corners of the country 
and providing advise and assist at no lower than the core level 
to the Afghan army and no lower than the zone level for the 
Afghan police.
    I think we should also be in Kabul at the institutional 
level, providing ministerial capacity-building efforts, as well 
as some of the institutions necessary to sustain an army post-
2014.
    I, at this point, am an advocate of a range in numbers 
because I believe that our post-2014 presence should be 
informed by a number of interdependent variables. The 
performance of the Afghan forces this summer is one of those 
variables. The effectiveness of our political transition in 
2014 is one of those variables.
    And what we project to be the security environment, the 
strategic landscape, if you will, post-2014, the strength of 
the Taliban, where we are with regard to reconciliation and the 
strength of Al Qaeda all should inform our post-2014.
    And then, finally, where we are with regard to regional 
actors and specifically where we are with regard to our 
relationship with Pakistan and where Afghanistan is with its 
relationship with Pakistan should inform our post-2014 
presence.
    Mr. Coffman. Can you tell me about the village 
stabilization--your assessment right now. The village 
stabilization program has had mixed results from the analysis 
that I have come in contact with. Can you tell me about your 
assessment of that?
    General Dunford. Congressman, over the past year, the VSO 
program, Village Stability Operations, and the Afghan local 
police, which is a part of Village Stability Operations, have 
actually not had mixed reviews. In fact, they are extraordinary 
successful.
    And I think my perspective on their success is less 
important than the Taliban's perspective on the success of the 
Afghan local police. It is clearly, as we read the 
intelligence, the most feared aspect of the security 
architecture because the Afghan local police now are very 
carefully vetted. They are inextricably linked with local 
leadership at the district level--at the village level.
    And they are part of the overall infrastructure of the 
Ministry of the Interior. The Afghan local police work directly 
for the district police chief.
    These are all changes, Congressman, that I think we have 
made in the past 18 months as a result of the things that we 
have learned from a decade of war. But I an actually very, very 
high on the Village Stability Operations and the Afghan local 
police program and I think it is a key part of our ability to 
help the Afghans as they provide what we call layered security. 
And that is merely the integration of all elements of the 
Afghan national security forces to achieve the desired effect 
province to province.
    Mr. Coffman. Mr. Chairman, my time is up. I yield back.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. I was busily 
reading one of the documents and I missed it.
    General, thank you so much for your service and for your 
men and women that are in the field and all that they are doing 
in a difficult situation.
    You answered one of my questions just a moment ago, but I 
would like to go back over it. And that is the criteria on the 
judgment that you will be making. You went through five or 
four, maybe five specific things, one of which I think I had 
not heard before and that is the relationship between 
Afghanistan and Pakistan.
    I think you said in response to Mr. Wilson that one of the 
issues was whether we needed to protect Afghanistan--protect 
Pakistan from Afghanistan. And I found that to be new and if 
that is one of the reasons, it seems to me to be a new one, and 
could you expound on that?
    General Dunford. Congressman, I can. I don't think it is 
new. It may be a point of emphasis for me. I think we have 
always looked at regional stability and security in a broader 
context from Afghanistan. We have always considered that we 
have critical national interests both in Pakistan and in the 
region. And what I was suggesting, because this is certainly my 
perspective as I look at it now, is that we, a few years ago 
took a look and realized that security in Afghanistan was 
inextricably linked to security in Pakistan.
    And all I I am saying is as we make a transition, we need 
to think about the future of Afghanistan in the context of 
regional stability and specifically security and stability 
inside of Pakistan.
    Mr. Garamendi. So that, we should stay in Afghanistan if we 
perceive Afghanistan to somehow become a threat to Pakistan. 
Previously we thought that certain regions of Pakistan were a 
threat to Afghanistan. And this is the flip side. Is that 
correct?
    General Dunford. I am not saying we should stay in 
Afghanistan because of Pakistan. What I am saying is the issue 
is inextricably linked. So I think it is fair to say if there 
is a threat today from Pakistan, it affects security and 
stability in Afghanistan. And in the future, were we not to see 
this through and provide stability and security to Afghanistan, 
I believe it is reasonable to expect, that based on what we see 
today, that there will be sanctuary for extremist elements 
inside of Afghanistan that could adversely affect Pakistan.
    Mr. Garamendi. Okay. There have been a couple of questions 
on infrastructure and I would like pursue that a little more. 
There basically it appears to me to be two different types of 
infrastructure. One is the military infrastructure and the 
other is the humanitarian economic infrastructure. Could you go 
into that a little bit more? Specifically in your testimony you 
said we expect to save $1.3 billion by downsizing the military. 
How much are we actually going to be spending in the, in the 
present year and I guess into the next year on military 
construction?
    General Dunford. Congressman I would like to take that for 
the record, the exact amount that we will be spending on 
military construction, if I could please.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Garamendi. And similarly on the economic 
infrastructure?
    General Dunford. The Afghan Infrastructure Fund is the 
request is for $359 million for this fiscal year coming.
    Mr. Garamendi. Very good. Thank you very much, that will, I 
will yield back my time.
    The Chairman. Thank you. Mr. Hunter.
    Mr. Hunter. Thank you Mr. Chairman. General first, thanks 
for your service and for your team and what you are doing. I 
think it is a lot easier to go in on the beginning of a long 
war like we have in Afghanistan, or the middle of that war, it 
is tough to bring it home and to make it end and to do it the 
right way and actually win. So thanks for what you are doing. 
And I think people didn't understand what you are up against.
    I think you were unfairly criticized by some of our 
colleagues, if you can call them that, in the Senate yesterday, 
for not giving the number of troops that you are going to 
recommend in the future. I think you have to take in the 
political, all the different machinations and ramifications of 
the entire environment there. And things that you say here do 
reverberate and have an impact back in, in-country. I think you 
have to keep that in mind.
    That being said, if you could just break down, let's say 
there is no United States in Afghanistan post-2014. Let's say 
we come back and say all right, General, we will give you 3,000 
troops and you say, thanks but no thanks. What does Afghanistan 
and Pakistan look like in 2014? And if you wouldn't mind taking 
that to 100,000-foot level, what does it look like for the 
entire area? For transnational terrorism, for nuclear 
terrorism, for that entire region and the impact on Iran and 
the United States going forward.
    General Dunford. Congressman, we have two missions. One is 
to address the terrorist threat in Afghanistan, the other is to 
provide security and stability in Afghanistan to preclude the 
Taliban from coming back. If we had no U.S. forces post-2014, 
both of those objectives would be at risk.
    As I was alluding to earlier with regard to Pakistan, I am 
increasingly concerned and I think so is the leadership in 
Pakistan, increasingly concerned with the extremist threat to 
Pakistan's stability and security. Pakistan is obviously a 
nuclear nation and the nexus of extremism and nuclear weapons 
in Pakistan would absolutely affect our vital national 
interests in the region.
    So from my perspective, stability and security in 
Afghanistan and Pakistan is inextricably linked and our vital 
national interest, we do have vital national interests in that 
part of the world. We do have threats that could emanate from 
that part of the world that could affect our security back here 
at home. And no presence post-2014, not insuring that we have 
stability and security in Afghanistan, not insuring that the 
stability and the security is linked to a plan for security and 
stability in Pakistan, would adversely effect, from my 
perspective, our vital national interests.
    Mr. Hunter. Thanks, General. Let's just loop to one thing 
that you mentioned in your testimony yesterday, too. Senator 
Ayotte talked about Section 841 authorities. In 2012, the NDAA 
[National Defense Authorization Act], do you know what Section 
841 does? Anybody who does not? It prohibits DOD from 
contracting with anybody that we think is an enemy, enemy 
combatant or just an enemy. It allows us to terminate and 
nullify those contracts.
    So the question is, you support the effort, what do you 
think about having that exact same rule apply to other agencies 
within the U.S. Government in contracting with Afghan enemies 
or any other enemies?
    General Dunford. Congressman thanks. And thanks for your 
support of that legislation from NDAA 2012, that did provide, 
that brought us with the ability to immediately stop 
contracting with anyone that we identified was providing 
resources to the enemy. And I think expanding that to all other 
government organizations, USAID, the State Department, as well 
as the Department of Defense makes absolute sense. And I would 
support anything that would prevent resources from going to the 
enemy.
    Mr. Hunter. General, that is all I got. Thanks for your 
service. Hope you get time to grab a beer back here before you 
head back. I yield back Mr. Chairman.
    General Dunford. Thank you.
    Mrs. Hartzler. [Presiding.] Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Madame Chair. General, statements 
made by the, Chair McKeon as well as the, my colleague the 
gentlewomen from San Diego, spoke about the progress that we 
have assisted in terms of Afghan women and girls. And as you 
know the NDAA last year required a plan for promoting the 
security of Afghan women and girls, and I think that is 
something that everyone has really bought into including 
President Karzai.
    I have recently been informed that your command plans to 
eliminate one of the programs that is directly supportive of 
this goal and that is the Family Response Unit. It is an Afghan 
Police Unit designed to investigate cases of domestic abuse. 
And you know you have Afghan female investigators to look into 
these cases. And I think that is one of the critical points 
that we are making especially in terms of the NDAA.
    And I think the elimination of programs such as this would 
run contrary to the NDAA and would weaken the protection of the 
women. Do you know anything about this? Can you comment about 
it? Or can you commit to at least reviewing the status of this 
program and to get back to me?
    General Dunford. Congresswoman, I would like to commit to 
reviewing the status of the program and getting back to you.
    [The information referred to can be found in the Appendix 
on page 69.]
    Ms. Hanabusa. Thank you very much. Also sort of in the same 
vein. One of the things that I noticed in your written 
statement, you are talking about the contractor drawdown that 
we will be seeing in Afghanistan. And I think you are saying 
approximately a reduction of 25,000 by the end of the calendar 
year 2013. And if I am reading that correctly, it is about 25 
percent. So are you anticipating that by the end of calendar 
year 2013, the reverse will be that we will have 75,000 
contractors still remaining in Afghanistan?
    General Dunford. Congresswoman, I will go back, first of 
all on the first part of it, I am confident about the 
percentage of drawdown and some specific decisions that we made 
in the last few weeks will allow us to experience that drawdown 
in contracting. I will go back and check the exact numbers, but 
at or about 75,000 sounds right. And I will confirm here later 
today, the exact number.
    Ms. Hanabusa. Can you tell me, that of the contractors, the 
75,000 that would remain, what the plans are for their 
security? As far as on your troops or the ISAF is concerned?
    General Dunford. There is a wide range of contractors. If 
you are referring to the contractors that work specifically for 
U.S. Forces Afghanistan, we will provide security to them in 
the same way that we provide for our own forces.
    Ms. Hanabusa. And do you know how many of the 75, or the 
approximately 75,000 would be those which would be reporting 
directly to you or to the United States, and therefore, one 
that we would provide security for?
    General Dunford. That general number sounds about right for 
those that are involved, either supporting international 
security force assistance, the ISAF, or United States Forces--
Afghanistan.
    Ms. Hanabusa. Is there any anticipated time for the actual 
drawdown of those contractors? Or is this a number that we 
expect to remain in Afghanistan for a while?
    General Dunford. Congresswoman, we would drawdown those 
contractors commensurate with the drawdown of forces. Although 
I would expect that as long as we have U.S. forces in 
Afghanistan, we are going to have some contracting support. 
What that contracting support would be on a pro share basis 
relative to the overall force structure.
    Ms. Hanabusa. So we, when we are say at the end of 2014, do 
we have an anticipated number that will be there in terms of 
our forces as well as the contractors that we have there?
    General Dunford. Congresswoman, we don't have a specific 
number for post-14 right now. The President is still 
deliberating on that decision. I haven't yet provided my best 
military advice to the President. I expect to do that via the 
Chairman of the Joint Chiefs here in the coming weeks.
    But I don't expect that number to be available in the 
immediate future.
    Ms. Hanabusa. And General could you respond in writing as 
to the types of services that you would expect that the 
contractors who may remain in Afghanistan post-2014, what types 
of services that they would be performing?
    General Dunford. I will do that Congresswoman.
    [The information referred to can be found in the Appendix 
on page 69.]
    Ms. Hanabusa. Thank you, I yield back, Madame Chair.
    The Chairman. Thank you. Mr. Scott.
    Mr. Scott. Thank you Mr. Chairman. General, most of the 
questions that I havebeen answered. But I just want to, I know 
you know this, and remind Americans, that we still have a young 
man that was fighting for our country that is a POW [prisoner 
of war] over there and just as we transition out of 
Afghanistan, making sure that all of the leadership of that 
country understand that the safe return of all Americans in 
uniform and contractors is necessary for us as a country.
    And just briefly, we talk a lot about the nuclear threat in 
the area. Could you speak briefly to the biological threat? 
Other weapons of mass destruction other than nuclear? Is that 
something that we are seeing any proliferation of?
    General Dunford. Congressman I don't have visibility on the 
latter threat and I will take that for the record and provide 
you with a response. With regard to PFC Bergdahl, I can tell 
you that we won't forget PFC Bergdahl and we pay very close 
attention to any information that might lead to his location 
and eventual return back home.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Scott. [Off mike.]
    The Chairman. Thank you. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman. General, I am familiar 
with all of the contributions that have been made by our 
international allies in Afghanistan, particularly the Polish 
battle group serving in Ghazni Province.
    And my question for you is that, as I understand, other 
nations are providing about one-third of the forces in 
Afghanistan. And so, what do you believe are the lessons that 
we have learned from those multilateral relationships?
    And how do you expect those relationships to be exported to 
other areas of the globe that we would like to influence, 
particularly those areas where we have little or no physical 
presence, for example, Africa?
    General Dunford. Congressman, thank you. First of all, in 
terms of integrating coalition, we have learned a tremendous 
amount over the last 10 years that it is applicable to the 
future.
    First of all, I think we are learning to take capabilities 
and limitations from each one of the countries and properly 
integrate them to achieve the effect that we need to have in 
performing a certain mission.
    There are strengths and weaknesses for each one of our 
coalition partners that we can complement by providing enabling 
support, for example, and sometimes it is a small thing like 
providing medical evacuation capability to a country could 
actually cause that country, then, to provide a significant 
role in advising and assisting Afghans or, in some cases, 
combat capability.
    I think another important lesson that I--that we should 
learn is the value of enduring military to military 
relationships over time. And I will just give you one brief 
example I think that highlights the most important lesson 
learned.
    In 1996, as a Battalion commander, I had a Georgian platoon 
serving with me at Camp Lejeune, North Carolina. And it was 
part of a Partnership for Peace program. We had 19 former 
Soviet Bloc nations that came to the United States to begin to 
learn not only our tactics, techniques and procedures, but more 
importantly, some of the cultural issues about a modern, 
professional army.
    Today I am proud to tell you that there are 1,500 Georgians 
in the Helmand Province. They are battle space owners. They 
have been conducting complex counterinsurgency operations and 
where they are today versus where they were in 1996 is nothing 
short of profound. And I think it came from that investment in 
coalition partners over time.
    Mr. Enyart. I an very glad to hear you say that, General, 
because the Partnership for Peace program has been a tremendous 
success, in my view, and I think the fact that 1,500 Georgians 
are owning battle space in Afghanistan is saving the United 
States Government 4,500 soldiers, 1,500 on the ground, 1,500 
getting ready to go and 1,500 in reset.
    So I appreciate those remarks. The Marines, I think, pride 
themselves on being our Nation's quick reaction force, or what 
I would term a quick reaction force. That may not be your 
doctrinal word, but that is the word--the term I will use.
    Can you tell me, particularly from your experience as the 
past Assistant Commandant of the Marine Corps, what has been 
the impact on Marine Corps readiness to serve as our Nation's 
quick reaction force with the deployments to Afghanistan, which 
may not have necessarily been in conformance with your 
doctrine?
    General Dunford. Congressman, thanks for that question. And 
I can tell you from my recent experience as Assistant 
Commandant what the impact of our contingency operations over 
the last few years has been.
    We pride ourselves on being a force of readiness, the 
Marines, the term we use is not a doctrinal term but it is a 
911 force, we have used that for some decades.
    But the significant challenge has been that our home 
station readiness has been adversely affected as we have 
correctly provided all the equipment, all the people and all 
the training focused on those forces that deployed to Iraq and 
subsequently to Afghanistan.
    What that did was degrade home station readiness to the 
point where, typically, two-thirds of the forces that are at 
home station, Camp Lejeune, Camp Smith, Camp Pendleton in 
California, Cherry Point and so forth, two-thirds of those 
forces are at a degraded state of readiness, typically in C3, 
C4.
    And as you know, one being the best, four being the lowest, 
typically two-thirds of the force has been at C3, C4, largely 
because of personnel or equipment shortfalls associated with 
our contingency operations forward.
    Mr. Enyart. General, one last quick question. In response 
to a previous question, you indicated that the United States, 
of course, has vital interest in that part of the world. And 
the obvious interests, to me, are preventing terrorism, 
preventing a base for terrorism, as well as controlling nuclear 
weapons in that part of the world.
    What other, if any, vital interests do you see that we have 
in that part of the world?
    General Dunford. When it comes to vital interests, 
Congressman, defined as the security of our Nation, it is that 
nexus of extremism and nuclear weapons that is our vital 
national interest in the region.
    Mr. Enyart. So you don't see any other particular----
    General Dunford. I see other national interests, 
economically, diplomatically, politically, but in terms of 
vital national interests where there could be a physical threat 
to the well-being of our Nation, that being the definition, it 
is the nexus of terrorism and nuclear weapons.
    And either one of those individually, but certainly where 
there is a nexus, that would be a threat to our vital national 
interests.
    The Chairman. The gentleman's time has expired.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And General, thank you 
so much for your service and particularly as it relates to 
Afghanistan.
    Recently, an Afghan army outpost was overrun by the 
Taliban. And that Afghan unit was rated as one of the strongest 
and most capable units the U.S. transferred authority over to. 
And I guess I am concerned about the fact that that is one of 
the most capable units and they were overrun and that compound 
was destroyed.
    Are we getting a real accurate assessment coming to you, 
that is, are you getting an accurate assessment with regards to 
the reliability of the Afghan National Army, in particular in 
the ability to defend itself? And obviously, as we look forward 
to leaving Afghanistan, I want to make sure that we are leaving 
it in a way that they can defend itself. Can you answer that?
    General Dunford. Congressman, first of all, from my 
personal experience, bad things happen in good units on 
occasion. In this particular case, it was a basic failure of 
leadership, nothing more, nothing less. There were fewer people 
at that observation post than there should have been.
    The Minister of Defense and the senior leadership in 
Afghanistan have taken corrective action. That individual that 
was the Battalion Commander was relieved of his duties 
following this particular incident because it did not reflect 
the capabilities and capacities of the Afghan National Security 
Forces, it reflected the commander's decision and the failure 
to properly provide resources based on the mission that they 
were assigned.
    Mr. Nugent. Well, it is good to hear that it was identified 
as to what the initial problem was. And that the Afghan 
National Army has taken the proper steps to reinforce the issue 
in regards to not happening again. And you are right, bad 
things do happen to good units.
    My concern as we move forward is Afghan army and police 
forces, are they sustainable in the long haul? Meaning, we have 
trained them to be self-sufficient organizations, take care of 
themselves once we leave, but do they have the close air 
support, the maintenance, logistics, and the casualty 
evacuation that we would expect them to have to be successful?
    General Dunford. Congressman, that absolutely is our focus 
now as we approach 2015, is to ensure that what we are doing is 
sustainable over the long-term.
    Of the functional areas you mentioned, the one that won't 
be addressed by the end of 2014 is aviation. It will take until 
2015 or until 2016 before the aviation piece is there in a 
sustainable way. And so there are some gaps that will exist 
post-2014.
    But by and away, the majority of what we call enablers, the 
things that you referred to, we will have those fielded and we 
will be well along the way towards integration by 2014.
    But again, I would emphasize that in order for our gains 
that we have made over the last couple of years to be 
sustainable, some post-2014 advise, assist mission is going to 
be necessary. That is where we are at this point.
    We have, as you correctly identified, we have grown the 
quantity of the force, they are in the fight, all the 
statistics that I outlined earlier are real with regard to what 
they are doing on a day-to-day basis, both with regard to 
conducting operations and securing the people.
    But today they are not sustainable. And there are some 
things that we need to do over the next couple of years to make 
sure that they are sustainable. Part of it is this ministerial 
capacity building that I spoke about.
    They don't have, today, the ability to plan, program and 
budget in a way that will sustain the army into the future. 
Part of it is their logistics infrastructure and making sure 
that we have distribution all the way down to the lowest 
tactical level from Kabul. And those areas are areas that are 
still weak.
    Intelligence is another area that we still continue to have 
to make progress and command and control is another area that 
will need to be addressed over the next couple of years.
    But we have clearly inside of U.S. Forces--Afghanistan, in 
the ISAF, we have clearly shifted our focus now on addressing 
those things from a quality perspective that will ensure that 
the Afghan capability is sustainable over time.
    Mr. Nugent. Well, and it is--as you know, obviously, 
particularly those outposts that are--Afghanistan does not 
necessarily have roads in most of those areas, so they are 
going to be dependent, obviously, upon transportation by 
helicopter to get the supplies they need to make sure that they 
can stay supplied, resupplied, but also have those assets to 
support them in a combat mission.
    So I would suggest or I guess we are going to wind up 
keeping assets there in that particular enabling area of 
aviation to be able to supply and resupply them?
    General Dunford. Congressman, I don't anticipate post-2014 
providing that kind of support. The aviation support that I 
would expect to provide post-2014 would be close air support in 
some geographical areas where there would be some difficulties.
    They currently have 26 helicopters that will grow to 50 
helicopters for the conventional forces by the end of 2014. We 
also have a special mission wing that will be 30 additional 
helicopters.
    We have some Cessna aircraft out there right now to help 
them move people and supplies around a battlefield and there 
have been four C-130s [Hercules tactical airlifters] approved 
to be delivered to the Afghans as excess defense articles over 
the course of the next 2 years. Deputy Secretary of Defense 
made that decision.
    So with regard to what we would probably describe as 
assault support, I would expect the Afghans to be providing 
their own assault support and also using ground transportation 
where appropriate. They certainly have already, for example, 
retooled their casual evacuation system to rely primarily on 
ground transportation and local hospitals.
    So it doesn't look like ours does, but it is effective in 
an Afghan context. So I don't expect that we would provide much 
in that category that you described post-2014.
    Mr. Nugent. Well, once again, I thank you and please pass 
on our thanks to all the troops that are currently serving over 
there. Having had a son in Afghanistan, those are really tough 
conditions to operate under, so I really do appreciate it. 
Thank you.
    General Dunford. Thank you.
    Mr. Cook. [Presiding.] Thank you, Mr. Nugent.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. On the 23rd of March, 
the U.S. Government transferred the Parwan Detention Facility 
over to Afghan control, General,along with its detainees. How 
many were turned over? How many detainees turned over at 
Parwan?
    General Dunford. Congressman at the, on the occasion of the 
transfer on 23 March, we had 390 detainees that were at that 
time under U.S. custody and control. And they were subsequently 
transferred to Afghan custody and control.
    Mr. Johnson. And how about at the Bagram facility that was 
transferred over on the 25th of March I believe it was?
    General Dunford. Congressman it is probably, maybe some 
confusion in the reports. The Parwan facility is at Bagram, so 
when we talk about the Detention Facility at Parwan it is 
synonymous with Bagram.
    Mr. Johnson. Okay.
    General Dunford. And that number that I provided to you was 
the number of detainees that we held on that date.
    Mr. Johnson. All right, thank you. It was referred to as 
Parwan and also as Bagram, that was a little, that was a little 
confusing to me. Thank you. How many of those detainees, if 
any, have been released from Afghan custody?
    General Dunford. Of the 390 that we turned over the 23rd of 
March, none have been released to my knowledge at this point. 
They were entered into the Afghan legal process at that time, 
which will take some time.
    Mr. Johnson. Was that the Afghan civilian process or the 
military process?
    General Dunford. They are using evidence-based legal 
framework for their processing detainees which is consistent 
with the Afghan law that applies to all Afghan citizens, 
whether it be military or civilian.
    Mr. Johnson. Thank you. The U.S. is negotiating a Bilateral 
Security Agreement with the government of Afghanistan. And we 
want to do so, want to have that in place by June or July of 
2013 as I understand it. Is that correct?
    General Dunford. Congressman, I would like to see that 
Bilateral Security Agreement signed in the very near future.
    Mr. Johnson. How are things going with it? Does it appear 
that we are on track to meet that deadline?
    General Dunford. I think both, and I would base my 
assessment on the support that I see within Afghanistan as well 
as the conversations I have had with members of the team that 
are doing negotiations. I think we are very close to addressing 
all the technical aspects of the agreement in a way that 
satisfies both Afghanistan and the United States.
    What I can't predict is the political environment that may 
affect the timing of the signing of the BSA, specifically what 
the political calculus might be in Kabul about the timing of 
the BSA.
    Mr. Johnson. Back in 2012 the U.S. signed a Strategic 
Partnership Agreement with Afghanistan which recognized the 
government or the country of Afghanistan as a non-NATO ally. 
And then in the negotiations for the Bilateral Security 
Agreement, the government of Afghanistan has raised the issue 
of mutual defense. Can you enlighten us a bit about how the 
Strategic Partnership Agreement and that designation of being a 
major non-NATO ally, can you explain to us, how those two 
agreements on that particular issue, would be consistent with 
each other?
    General Dunford. Congressman, you know, with regard to the 
Bilateral Security Agreement and mutual defense that obviously 
is still being worked. But I would offer to you, and I think 
you know this, that in order to have a mutual defense treaty, 
we would have to have something that was ratified by the 
Senate. In the Bilateral Security Agreement is not intended to 
be a treaty ratified by the Senate that incurs a security 
obligation to the United States. So that is, the details of 
that are still being worked.
    Non-NATO ally status provides a category that facilitates 
the exchange of foreign military sales or excess defense 
articles and those kinds of things. If you are a non-NATO ally 
you have special status legally, where it can facilitate some 
of the military-to-military programs that we have. I can get 
you the exact details on that. But that, generally speaking, is 
the significance of being a non-NATO ally.
    Mr. Johnson. All right, thank you. Last but not least, does 
the, would the U.S. jurisdiction or control over our forces 
post-2014, include also jurisdiction and exclusive control over 
the 75,000 contractors?
    General Dunford. Congressman it would not automatically do 
that. And that aspect of the BSA negotiation is ongoing. But 
the Status of Forces Agreement would not relate specifically to 
contractors unless it was negotiated separately.
    Mr. Johnson. Thank you.
    Mr. Cook. Thank you, Mr. Johnson. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. General, thank you 
one for being here today. I was curious, what is your sense of 
loyalty of the national militaries of Pakistan, Afghanistan, 
towards their leaders?
    General Dunford. I can probably better speak to the loyalty 
of the Afghan forces as opposed to the Pakistani forces. 
Certainly at the counterpart level, the Minister of Defense, 
Chief of the General Staff and the senior leadership that I 
deal with on a routine basis, are very much committed to the 
future of Afghanistan. They believe in Afghanistan. There is a 
lot of discussion about factionalism in Afghanistan amongst the 
senior leadership. Were that to occur, it wouldn't occur 
because they want it to occur. They absolutely would like to 
see a cohesive, National Army, for the people of Afghanistan, 
for the nation of Afghanistan. Their vision for Afghanistan is 
very much consistent with what our vision for Afghanistan would 
be.
    Dr. Wenstrup. And the other question I have, I know we have 
significant medical assets at Bagram. And I am curious what 
will become of that facility and what type of care will the 
people of Afghanistan get or the military of Afghanistan get, 
particularly once we leave?
    General Dunford. One of the areas that we are working on 
very hard, and we talk about enablers in general, is the 
medical capability of the Afghan forces. And so in terms of 
developing their capability to provide services that are 
consistent, not similar, not exactly the same, but consistent 
with what we provide to our forces, they have made a lot of 
progress.
    In fact they recently identified someone to serve as in 
effect their Surgeon General, a uniformed General Officer, as 
their Surgeon General who now sits on the general staff to work 
these kind of issues. So with regard to field hospitals, 
medical training for personnel at the lowest active level, as 
well as a National Military Hospital which has been constructed 
for more serious injuries, I would describe their medical 
capability at this point, as maturing. But it is one of the 
areas that we are working on as we talk about a sustainable 
Afghan solution.
    Dr. Wenstrup. General will we have a need or obligation to 
stay longer with medical assets do you think?
    General Dunford. Not for the Afghans specifically 
Congressman. The medical support that we would provide post-
2014 would be largely for U.S. and coalition forces and 
certainly on a humanitarian case-by-case basis, we would do 
what we always do, in terms of providing support for Afghans. 
But we wouldn't plan, and train, organize and equip 
specifically to provide care for Afghans. That will be 
something that they will sustain themselves after 2014.
    Dr. Wenstrup. Thank you, General. I yield back my time.
    Mr. Cook. Ms. Tsongas.
    Ms. Tsongas. Thank you, and thank you, General, for 
appearing before us today. This is an issue that we have all 
monitored very closely. And I for one, are grateful to see us 
drawing down in a serious way. I would support a more 
aggressive effort but appreciate very much the planning that is 
going into this.
    I wanted to go in a slightly different direction. As I am 
sure you know we are currently running into an issue that we 
also confronted in Iraq. That insurgent murders of allied 
indigenous translators who were on the payroll of coalition 
armed forces. My hometown of Lowell, Massachusetts has a small 
community of Iraqis who sought refuge in our country after 
helping us in our effort in Iraq and whose lives and the lives 
of their families were very much at risk as we drew down.
    So this is an issue which was brought to my attention very 
shortly after I first took office. Senator Kennedy, the then-
dean of our delegation, also played a key role in expediting 
visa approvals for Iraqi translators in 2008. Today however, 
according to an article this week in the New York Times, 
thousands of Afghan applicants are caught in an approval 
process that lasts for more than 2 years. As many as 5,000 were 
waiting to begin the process as of last fall, and a number of 
these translators work with Special Operations Command putting 
their lives in even greater danger by participating in dozens 
if not hundreds of high-risk missions.
    I recognize that this is an issue really that the State 
Department, is within the State Department's purview and not 
ISAF, but to the extent you can, can you please outline some of 
the measures that ISAF takes in collaboration with the Afghan 
National Security Forces, to protect Afghan translators, both 
during and after their service with ISAF?
    General Dunford. Congresswomen, when they are serving with 
us, we provide them the same standard of protection we provide 
to our own forces. And I would just echo your comments, they 
have been absolutely critical to our success over the past 10 
years. And some incredibly committed and brave young Afghans 
and some not so young Afghans have provided us with 
extraordinary support to allow us to accomplish the mission.
    And so I an very supportive of them, and in the cases of 
those that have applied for visas to be able to get to the 
United States, we have, in some cases, on a case-by-case basis, 
insured that their paperwork was properly completed and 
forwarded from the Embassy in Kabul so at least they were back 
here and competing for the visa applications back here. Once 
they are no longer in our service, we do not provide them with 
security. And in many cases they are at great risk, which I 
think highlights the importance of the visa program in insuring 
that we try to do that as expeditiously as possible. Because 
these are individuals that we owe a debt of gratitude to.
    Ms. Tsongas. Well I appreciate that. And I know I have seen 
some of the families that are in Lowell, Massachusetts who 
helped our effort in Iraq, making their way to this country is 
not an easy one. They need a lot of support once here, but I 
encourage you, just in recognition of sort of maintaining the 
integrity of our effort, that we do everything we can to help 
the Afghans who have helped us, especially those translators.
    I also want to associate myself with the comments that have 
been made about supporting, helping support the gains that have 
been made for women and girls in Afghanistan. I have been part 
of several trips that have really focused on those gains. You 
spoke about the numbers of young people now going to school.
    We visited a school in Northern Afghanistan in which 
hundreds of girls were coming through on any given day, 
obviously with the support of their families, putting their 
families at risk, as they were their young people.
    But tremendous gains that have been made. And I, for one, 
would hate to see us walk away--or be seen as waking away from 
those gains. They have been so important--have elevated the 
sight lines of young girls.
    We asked, ``What do you want to do?'' They want to do 
exactly what our young daughters want to do, and that is just 
the result of exposure to education. So I encourage you, in 
your capacity, to do everything you can as we begin to draw 
down our effort.
    Thank you, and I yield back.
    General Dunford. Thank you, Congresswoman.
    Mr. Cook. Thank you.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    General Dunford, as you know, the President's budget 
request was submitted to Congress last week without a final 
request for OCO operations in fiscal year 2014.
    Secretary Hagel was also here last week. Testified he was 
delayed to provide you enough time to fully assess requirements 
for force levels.
    Of course, we are interested in getting the details as soon 
as possible on the NDAA over here for early June. The 
President's budget was submitted 2 months late. Do you believe 
you will have--you will be able to make those recommendations 
to the White House in time for the budget request to be 
finalized in the next few weeks?
    General Dunford. Congresswoman, the decision really is--
once the President makes his decision about the drawdown, we 
will then be able to provide the right budget fidelity.
    Mrs. Walorski. And let me ask you this. We had General 
Madison here a couple weeks ago, and he made the comment about 
his concern overall in the military--as he was retiring--about 
budget austerity leading the mission in our military, and no 
longer strategic types of outlooks.
    And does the fiscal uncertainty affect your planning in 
2014 and post-2014?
    General Dunford. Congresswoman, the biggest thing that I am 
concerned about in terms of the fiscal environment is not so 
much the money that we spend in Afghanistan. I have been 
assured by the Congress and by senior leadership in the 
Department that as long as we have men and women in harm's way 
in Afghanistan, they will be properly resourced.
    Where I see the greatest risk is on--at home station 
training, in the preparations that our young men and women have 
before they deploy. And I think the impact on readiness is 
real. It is occurring right now, and is something we all ought 
to be concerned about.
    Mrs. Walorski. Thank you.
    I yield back my time.
    Mr. Cook. Thank you very much.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    General, as we transition the role of the Afghan National 
Security Forces, they, I think, move to a more regular role, 
shall we say, in terms of military police, everyday stuff, that 
is going to be significantly different from what they are doing 
now.
    And yet, we have seen that many of the challenges that we 
have had are--to use the vernacular of my neighborhood--they 
are ``inside jobs.'' They are people who have infiltrated and 
seek to do harm, and in such a fashion, destabilize not only 
the local situation, but frankly, they undermine the 
credibility of the security forces there and the perception of 
the American public with respect to Afghanistan's ability to 
sustain itself and to take care of itself.
    What are you doing differently that hasn't been done in 
order to minimize those risks? What have we learned from that 
situation? And what are we doing differently to ensure that 
that doesn't happen in the future?
    General Dunford. Congressman, thanks for that question.
    I think it is fair to say, as we grew the quantity of the 
force over the last several years, the vetting process was 
completely different than it is right now. And that is the 
critical piece, is properly vetting individuals that come into 
the police and the army.
    We do have a much tighter, and the Afghans specifically, 
have a much tighter vetting process now, where local leadership 
vouch for young men and women that serve, or that volunteer to 
serve in the Afghan police, in the Afghan army. Biometric data 
is taken on each one of those individuals, and leadership has 
much more oversight over the individuals as they come back from 
leave, as an example.
    We are paying particular attention to individuals who have 
gone on leave who may have been influenced when they were on 
leave when they return.
    So, I think the critical piece to address the challenge you 
talked about is properly vetting individuals before they join, 
and then ensuring that once they come back from extended leave 
periods, that they are also then vetted before returning back 
to the units. And both of those steps have been taken. And I 
think that has, in large part, been part of the success of 
mitigating the insider threat that you refer to--the insider 
threat being on the Afghan side.
    Mr. Gallego. What have we learned, and what is different 
now--very recently, we had a situation where a State Department 
employee--very young--was killed on what I would consider a 
fairly humanitarian mission in terms of delivering school 
books. And the situation is tragic, and someone argued that 
that is not necessarily--it wasn't necessarily part of the core 
mission in the security interests of the United States.
    What is different about--it is clear that this strategy has 
two prongs. I mean, at some point, you are worried about the 
security, but you are also trying to build a relationship on 
sustainability, long-term.
    What have we learned from that, and what happens going 
forward----
    General Dunford. Congressman----
    Mr. Gallego [continuing]. In a situation like that?
    General Dunford [continuing]. That tragic loss of life was 
in a mission that was outreach to the Afghan people. They were, 
I think, as you know, delivering school books in--trying to 
participate in a mission to do that.
    That is part of our long term plan for the State 
Department. I would expect that the U.S. State Department will 
continue those types of outreach programs post-2014. It is what 
our brave young men and women in the State Department do every 
day around the world. I think that incident highlights that 
Afghanistan does remain a dangerous place. There is still 
violence occurring in Afghanistan, and there will be for the 
foreseeable future. But it also highlights the need for brave 
Americans to be out there, and doing the things that we need to 
do to bring stability and security to Afghanistan. And she was 
very much a part of that.
    Mr. Gallego. Thank you, Mr. Chairman. I yield back.
    Mr. Cook. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Cook.
    I apologize, General, but there was another committee 
meeting, so some of us just joined late here.
    But one question--and I apologize again if you have already 
gone over it, but in terms of the drawdown--I mean, a part of 
it, obviously, is logistical in terms of equipment and, you 
know, transporting--I assume, lots of materiel back to the U.S. 
or outside of Afghanistan. And I know--you know, in Iraq, there 
was definitely sort of a--almost like a triage-type decision 
made in terms of, you know, types of vehicles that would be 
left behind.
    Others, like MRAPs [Mine-Resistant Ambush Protected 
vehicles], that were considered, you know, more valuable and 
moved out. And I was just wondering if you could sort of give 
us a quick snapshot.
    Mr. Hagel, when he was here the other day, you know, was 
really adamant that, you know, people should not accept--or 
expect instant savings from the drawdown, because, frankly, 
there is a pretty big bill to pay in terms of just executing 
the drawdown.
    And, you know, maybe just sort of help me, you know, in 
terms of how that is going.
    General Dunford. Congressman, there are really three parts 
to the drawdown: there is the retrograde of equipment that 
actually will come back here to reset, in large part, the 
United States Army and the Marine Corps, but each of the 
Services.
    There is then the base closure piece that is taking place. 
And then there is the retrograded materials, and so forth--
materiel reduction.
    With regard to retrograde, the Services identified to us 
those items that will be returned back to the Services. In 
other words, based on either the condition of that particular 
piece of equipment, or the need for that piece of equipment 
coming back. They will identify that for us to send home.
    I feel confident that those items that have been identified 
to reset the Services will come home by the end of 2014. But I 
think what Mr. Hale mentioned is really an important point, 
because at that point, the reset process begins. And so the OCO 
money necessary to reset that equipment will be required for 
some period of time after that equipment leaves Afghanistan.
    It will take, in many cases, 90 days for that piece of 
equipment to return back to the United States, at which point, 
it will either return to a home station, or be inducted into 
depot-level maintenance.
    In any case, there will be maintenance required to reset 
that vehicle to a serviceable condition to ensure that it is 
ready for soldiers, sailors, airmen, and marines to use it 
before they deploy it for another contingency.
    So that is an important part of it, and I think that is why 
we are going to continue to need services funding for some 2 to 
3 years after we draw down all the equipment inside of 
Afghanistan.
    Mr. Courtney. And how about the base closures which you 
mentioned? I mean, is that--I mean, can you give us sort of 
some general sense of how many of them closed and how many 
will--how many more will be closed?
    General Dunford. Again, Congressman, we have closed, I 
think, on the order of 400, more than 400 bases. And we have a 
little more than 100 to go. And I will confirm those exact 
numbers for you, but it is somewhere in the order of four-
fifths of the bases that we had at one point have all been 
closed right now, so we are proceeding a pace in terms of 
closing those bases.
    Some of the larger, more complex bases, the ones that 
remain--some of those will remain post-2014, so we still have a 
fair amount of work to do.
    But I think we have a very detailed plan. I am comfortable 
that, again, we will get the equipment out by the end of 2014. 
But I think some of the base closure and materiel reduction 
efforts that will take place will probably take place after 
2014.
    Mr. Courtney. I mean, this really must be almost a historic 
sort of effort in terms of just the amount of materiel that you 
are going to be moving around. And, obviously, you know, the 
number of installations that are being closed. And, you know, 
Iraq was sort of a similar kind of challenge. I mean, did that 
experience provide some help in terms of doing this maybe a 
little, you know, more efficiently or smarter?
    General Dunford. Congressman, absolutely. Our experience in 
Iraq informed Afghanistan, but we, in Iraq, we had Kuwait. And 
so we were able to bring all the vehicles down there and stage 
them and so forth.
    I would say that Afghanistan--the degree of difficulty is 
significantly greater in Afghanistan than it was in Iraq as a 
result of geography. And so, while we learned many lessons from 
Iraq, Afghanistan is its own set of unique problems that we are 
dealing with. But I think it is historic. And frankly, I always 
tell people, among the things I lay awake at night, despite the 
complexity of this particular issue, and despite the magnitude 
of the issue, this is not one of those areas that I lay awake 
at night, because we have extraordinarily capable young men and 
women that are working these logistical issues. And although I 
get routine updates to track our progress, I feel very 
comfortable that in this, what I describe as the science of 
war, we are in pretty good shape.
    Mr. Cook. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Dunford, thank you so much for joining us today. 
Thanks for your service to our Nation.
    It is always been my privilege to travel down range to see 
our great men and women that are serving there--our marines, 
our sailors, our soldiers, our airmen. They are doing a 
fantastic job, and I appreciate what you are doing in leading 
ISAF, especially through these challenging times in transition.
    I did want to speak a little bit about that transition as 
we look at what you are faced with. Obviously, with the 
drawdown and with the fighting season coming up, and then 
trying to manage not only that combat effort, but also managing 
the resources that you have in theater there, trying to get 
some of those elements back home.
    I know that General Allen testified, and his words were, 
``Throughout history, insurgencies have seldom been defeated by 
foreign forces. Instead, they have been ultimately beaten by 
indigenous forces.'' And in the long run, our goals can only be 
achieved and then secured by Afghan forces. Transition then is 
the linchpin of our strategy, not merely the way out. And I 
know that you are faced with that as far as that.
    Tell me, where we are right now, what are the largest gaps 
that you believe are there with the Afghan National Security 
Forces? And how do you believe those gaps will be bridged or 
what might even be left as we begin to ramp down and have some 
kind of residual force there as we go forward?
    General Dunford. Congressman, thanks. And I would echo 
General Allen's comments about the defeat mechanism being the 
indigenous forces and that is exactly our approach in terms of 
growing the capabilities and capacities of the Afghan National 
Security Forces.
    Where we are right now is that aviation is one of those 
gaps that you asked about. Logistics is one of those gaps that 
you asked about. Intelligence, command and control, and then 
leadership. We have got a significant deficit in leadership. We 
are short some 10,000 non-commissioned officers in the army, 
some 6,000 in the police. There is inconsistency in the quality 
of leadership across the police and the army that will take 
time, and that is certainly something that the Minister of 
Defense and the Minister of the Interior are both working on 
over time. I believe we will be in the right trajectory in most 
of those areas before the end of 2014. We will still need an 
advise and assist effort to address some of the ministerial 
capacity issues that I have spoken about, planning, 
programming, budgeting, and all the things that really need to 
be put in place to sustain our progress over time.
    The one area where we will still have a significant gap 
post-2014 is in aviation. We won't see that gap closed until 
2015 or 2016. But in most of those other areas, our effort is 
to accelerate the pace of fielding what we describe broadly as 
enablers, which are those functional areas that I spoke about. 
And I think we will be pretty close to where we need to be by 
the end of 2014, with certainly some work, particularly in 
terms of integrating capabilities, some work left to be done 
after 2014.
    Mr. Wittman. Let me ask you this, just yes or no, then you 
don't believe then that the gaps, as they exist today, or where 
they will be as we begin to move to a residual force would be 
fatal to the long-term stability of Afghanistan?
    General Dunford. I don't, Congressman. I believe that the 
trajectory that the Afghan security forces will be on post-
2014, given the projections that we make about the security 
environment within which they will be operating, will allow 
them to be successful in effecting security transition and 
provide security to the Afghan people post-2014.
    I do think, from time to time, aviation support we will 
continue to provide intelligence support, command and control, 
but I think that is the nature of advise and assist. So I would 
caveat my comment by saying that based on the limited support 
that we will support post-2014, I am confident in the Afghan 
capability to provide security.
    Mr. Wittman. Let me ask you this. As far as retrograde, I 
know it is a challenge trying to get equipment out of there, 
determining which equipment we keep, which we may send to the 
ANSF [Afghan National Security Forces].
    How is that progressing? I know the packed GLOC [Ground 
Lines of Communication] as opened up a little bit, but 
certainly not with enough flow to get to the Port of Karachi to 
where we could really get equipment out like we need to.
    Obviously flying costs and the efforts through the northern 
routes are also very, very expensive. Where do you see things 
with our force structure in the retrograde? Have there been 
discussions about how much we can leave there? I know the 
different branches want to be able to take some things home 
because that is critical to their reset.
    Give me your vision where we are today, where we need to be 
to make sure that the retrograde is taking place in good pace 
along with our drawdown.
    General Dunford. Congressman, first, with regard to the 
equipment that we will bring out. I have pledged to the 
Services that whatever they need to reset, we will retrograde. 
And that is our plan is based on what the Services identify as 
important and we will make sure that that happens.
    As you know, from my recent experience, I am sensitive to 
the needs of the Services as well as the requirements that we 
have forward, and we will balance those over the next 2 years.
    We don't have a capacity issue with regard to getting the 
equipment home. But you correctly identified the real issue, 
which is the cost. And so we have plenty of capacity. We could 
move all of our equipment out by air or multimodal, flying it 
to a port and then bringing it back home by ship. But it is 
significantly less expensive were we to bring it out across the 
ground lines of communication.
    As an example, I think the total cost for our retrograde is 
on the order of $6 billion if we don't have the GLOCs 
available, and closer to $4 billion if we do. And I can get 
those exact figures to you, but it is not insignificant, the 
amount of money that would cost us if the GLOCs are not 
available.
    We have had 2 months of successful proofs of principle 
moving equipment both from Afghanistan to Pakistan and through 
the Port of Karachi and back home. As well as having equipment 
that had been backlogged inside of Pakistan has now been freed 
up and brought into Afghanistan.
    This next 2 months will be critical. We will start to see 
the velocity that we will need to have on those ground lines of 
communication. But we have worked through the technical aspects 
of getting through the various checkpoints and customs and 
security pieces of movements across the ground lines of 
communication, and I think we are in pretty good shape as we 
look towards the next couple of months.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Cook. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. General Dunford, 
thank you for your service to our country and please convey to 
the men and women that you lead how proud we are of them and 
how much we support them and want them home safely. We 
appreciate their effort very, very much.
    General Dunford. Thanks, Congressman.
    Mr. Andrews. And yours as well. On page 15 of your 
testimony, you outline one of the definitions of victory as an 
operationally ineffective Al Qaeda deprived of a safe haven 
from which to plan and conduct operations outside the area. How 
do we stand today with respect to achieving that goal?
    General Dunford. Inside of Afghanistan, Congressman, the 
operations that we have conducted with our Special Operations 
Forces have effectively disrupted Al Qaeda.
    There is a small presence in the northeast part of the 
country, a small Al Qaeda presence, but I do not assess them as 
having the capability to plan or conduct operations outside of 
Afghanistan at this time. And it is largely as a result of the 
operational tempo of our Special Operating forces, which 
virtually, every night, are conducting operations to disrupt 
those Al Qaeda remnants.
    Mr. Andrews. I know what is supposed to happen when those 
Special Ops forces are no longer in the country doing that. 
What do you think will happen? When the Afghan forces are 
responsible for achieving that objective, how do you assess 
their readiness to do that?
    General Dunford. Congressman, I think there are a couple of 
variables. One is the capabilities of the Afghan security 
forces and I am confident in their development over time that 
they will be able to provide security inside of Afghanistan.
    But a critical piece of addressing the enemy situation in 
Afghanistan is going to be where Pakistan is with regards to 
supporting the enemy inside of Pakistan, as well as the 
progress of political transition inside of Afghanistan. So 
those are all preconditions to our ability to have a 
sustainable security environment over time.
    Mr. Andrews. I understand these goals are integrated, they 
all relate to each other. I notice that the fourth goal is that 
constructive ANSF-Pakistani military relationship. How does the 
Taliban fit? If that relationship between the ANSF and Pakistan 
is optimal, from our point of view, how does that alliance deal 
with the Taliban and what is their relationship with the 
Taliban?
    General Dunford. Congressman, one of the developments that 
I have seen certainly in the last few months, and I have met 
with General Kayani in Pakistan twice now since arriving in 
Afghanistan, is there is a growing recognition inside of 
Pakistan that the linkage between Pakistani Taliban and Afghan 
Taliban has a destabilizing effect, not only inside of 
Afghanistan but inside of Pakistan, as well.
    In fact, it has been described to me by the Pakistanis as 
their desire to break the nexus between Pakistani Taliban and 
Afghan Taliban to try to support the turning of the Afghan 
Taliban politically inwards toward Kabul so they can deal with 
the very real threat they have inside of Pakistan.
    Pakistan has lost over 15,000 killed or wounded since 9/11 
dealing with the threat. Just in the past couple of weeks, 
inside the Khyber Agency, they were involved in a very 
difficult fight where hundreds have been killed and wounded as 
they deal with the TTP [Tehrik-i-Taliban Pakistan] threat.
    So from my perspective, the military-to-military 
relationship that Afghanistan and Pakistan has post-2014 will 
be helpful in dealing with what is now, I think, commonly 
understood to be a mutual threat to their security. And I 
actually have--although there are some concerns about the 
strategic relationship between those two countries, I actually 
have a degree of optimism about our ability to affect a 
constructive military-to-military relationship between Pakistan 
and Afghanistan because of their common understanding of the 
threat post-2014.
    Mr. Andrews. That would be like--best news we could 
anticipate for the future of the region. I noticed that the 
attrition rates for the Afghan forces still are about twice 
what the goal is. What has been the most effective attrition 
reduction strategy that you have seen in country thus far?
    General Dunford. Congressman, from my perspective, it is 
about leadership. And when I came into the United States Marine 
Corps in the 1970s, both the United States Marine Corps and the 
Army had significant attrition problems. And we fixed those 
problems with leadership. We fixed those problems by holding 
leaders accountable and to standard.
    And that is exactly the most effective way to deal with the 
attrition problem in the Afghan forces. There are really two 
pieces of it. One is good vetting, as individuals are recruited 
to come into the service. And then once they are in, ensuring 
that we have the proper command climate within which those 
individuals----
    Mr. Andrews. So is there a range of results that some units 
that are well-led have very low attrition and others that have 
very high attrition?
    General Dunford. Congressman, there is a direct correlation 
between leadership and attrition.
    I will give you an example. The Minister of Defense 
recently identified 30 general officers to be reassigned or 
relieved of their duties. He gave us that list of names. When 
we did a correlation of those names and units, we found that 
there was a direct correlation between high attrition levels in 
those units and the failure of those individuals to perform to 
standard.
    So absolutely a relationship between the two. And again, I 
think today we have an inconsistency in leadership across the 
Afghan forces that will be addressed over time.
    Mr. Andrews. General, thank you very much for your service.
    Mr. Cook. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. General, good to see 
you again. Thank you for your service and thank you for your 
hospitality a few weeks ago when I was in Afghanistan.
    I am going to be parochial here. I have the Anniston Army 
Depot here in my district, several thousand great Americans who 
have done a real stand-up job in supporting our military in 
both theaters and been over there side-by-side with them on 
many occasions trying to make sure that their equipment worked.
    And as a result, I am focused a little bit on FMS [foreign 
military sales] with Afghanis. Are there any foreign military 
sales planned with the Afghanis to try to help them with the 
equipment we are going to leave behind or not at present?
    General Dunford. Congressman, we are still refining the 
plans for FMS for Afghanistan. I would be happy to stay in 
contact with you and provide those details over time.
    Mr. Rogers. I would appreciate that. I serve on the 
Readiness committee with Mr. Wittman who just talked to you 
about retrograde. And I know part of the tour you gave me over 
there was looking at retrograde.
    One of the things that has come up since I have gotten back 
is whether or not the costs for bringing the equipment back, 
transportation, which you were just talking about with Mr. 
Wittman, has become so onerous that that may be a big factor in 
whether or not we bring some of the stuff back. Is that going 
to be the primary factor on whether or not we can use it again?
    General Dunford. Congressman, the Services are making a 
case-by-case decision on each piece of equipment. And one of 
the factors is obviously the requirement back home. Another 
factor is the condition of the equipment that is in 
Afghanistan. And then the costs of transporting that equipment 
home.
    But we have a very close dialogue with the services. In 
fact, I think with regard to the Army we are doing weekly VTCs 
[video teleconference] with the Army to track the equipment 
that they need to bring back home.
    So cost is one of the variables, but it is just one of the 
variables. The real issue is achieving the desired end state, 
which is enhancing the readiness of our home station units. And 
so it is all being balanced in a way that I think is 
appropriate.
    Mr. Rogers. Great. Last question I have got--and you may 
not know the answer to this, because the President's budget 
just came out--but do you know if that budget request 
adequately funds the transportation cost that you expect in the 
retrograde, or is it too early to tell?
    General Dunford. Congressman, it is too soon to tell. We 
have not got the details of the actual OCO piece of that budget 
which would cover the transportation cost you refer to.
    Mr. Rogers. Great. Thank you for your service and I yield 
back.
    Mr. Cook. Well, seeing no--Colonel Kline, you have no 
questions at all?
    General, on behalf of the committee, first of all, I had a 
couple of questions but you have already answered. You have 
been extremely patient. I want to thank you very much for our 
visit that we had over there. It was really an eye-opener. I 
was very, very impressed with the American military, primarily 
Army units. Your leadership, the Afghans, it was--very, very 
concerned about the politics, but that is something we will 
discuss outside this room.
    But, I wanted to give you a chance if you had any final 
comments you wanted to make. It has been a long morning. You 
have answered every question conceivable, I think, and I 
appreciate your patience.
    So you have the last word.
    General Dunford. Thanks, Congressman.
    The only comment I have is I actually do appreciate the 
opportunity to come here today to testify. And one of the 
reasons is I am concerned that perhaps Afghanistan is in the 
rearview mirror in some ways to the Afghan people, and I very 
much appreciate the House Armed Service Committee ensuring 
that, that is not the case.
    We still do have nearly 60,000 young men and women that are 
in harm's way, and what I want to do is the same that thing you 
want to do, ensure that they have the wherewithal to accomplish 
the mission until the very last day that they are in 
Afghanistan.
    And so I appreciate the support of the committee in making 
sure that we do that, and I appreciate your visit. And we 
welcome any members of the committee to come over and visit. 
One, I think it means a lot to our forces forward deployed. 
They know by your visit that you actually care about what 
support they have, and I also think it just reaffirms the 
commitment of the American people to what they are doing, and 
let's them know that what they are doing is important.
    And I would tell you that at the end of the day is really 
all they ask for, they just ask that the American people 
recognize and support what they are doing in Afghanistan. And I 
think with that support they will do whatever it is that we ask 
them to do.
    So thanks very much.
    Mr. Cook. Thank you very much, General.
    On behalf of the committee, thanks again.
    Semper Fi.
    This meeting is adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                             April 17, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2013

=======================================================================


              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

                   Recent Developments in Afghanistan

                             April 17, 2013

    Good morning ladies and gentlemen. The House Armed Services 
Committee meets to receive testimony on the recent developments 
in Afghanistan. Today, we have with us General Joseph Dunford. 
General Dunford, thank you for your leadership and service to 
the Nation, and thank you for joining us today.
    The NATO mission has entered a period of ``transition.'' 
Although NATO has not fully transitioned security efforts to 
Afghan lead, President Obama already has announced the 
withdrawal of half of the U.S. forces in Afghanistan by this 
time next year. In my view, the President's approach is fraught 
with unnecessary risk. Nevertheless, on my recent trip to the 
region, I was impressed by how far the Afghan security forces 
have come. Their capabilities and willingness to fight for the 
future of their country are remarkable.
    The fundamental question before us is how the United States 
will continue to preserve U.S. national security interests 
after 2014. One of the key components to answering this 
question--in addition to the President's forthcoming decision 
on post-2014 troop presence and mission set--will be the 
Bilateral Security Agreement that the Administration is 
currently negotiating with the Government of Afghanistan.
    After over 10 years of war, the American people are 
understandably war-weary. Clearly, the situation in Afghanistan 
and the region is challenging and complex. But Afghanistan is 
directly connected to our vital national security interests and 
we must get this right. We owe nothing less to the victims on 
9/11, the U.S. troops and their families who have served and 
sacrificed, and our sons and daughters who may have to return 
if we get this wrong. The simple justice that comes from that 
principled position cannot be overstated.
    General Dunford, again, we are extremely grateful for your 
service to our country. I look forward to your testimony.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

                   Recent Developments in Afghanistan

                             April 17, 2013

    Thank you, Mr. Chairman. I share in your comments about the 
outstanding job General Dunford has done and the job that our 
troops have done in a very, very difficult environment.
    I have been there many times myself and I have seen the 
progress, and not just in Kabul, not just in the capital, but 
out in some of the tougher regions, down in Helmand, down south 
in Kandahar and other places. Our men and women have done an 
amazing job and they did it by putting their lives on the line 
and going out there and cleaning up places that needed to be 
cleaned up and giving the Afghan people the chance in a more 
stable
future.
    So we definitely recognize the service, the sacrifice, and 
the outstanding job that they have done and admire the progress 
that has been made.
    I also want to say that I thank General Dunford, I heard 
some of his comments yesterday. I think it has been clear for 
some time what our goals are in Afghanistan. I have always had 
a great frustration that people say we don't know what we are 
doing there. We know exactly what we are doing there.
    We want to make sure that we have an Afghan government that 
can stand, that can be stable, that has security and governance 
without us, because we cannot have a permanent presence there. 
We want to deny Al Qaeda the ability to return to Afghanistan 
and use it as a safe haven. And really that second goal is tied 
directly to the first of having an Afghan government that can 
stand and survive against the Taliban, against potential AQ 
elements. I think that has been clear from the start.
    Those are modest, realistic goals. We are not going to 
eliminate the Taliban from the Afghanistan-Pakistan region. The 
question is can we contain them and what is the best strategy 
for containing them? And the best strategy for containing them 
is doing our level best to train the Afghan security forces to 
be in a position to do that. And I think we have made enormous 
progress on that front and we are headed in the right 
direction.
    But part of doing that is making it clear that eventually 
we are going to leave. Eventually they are going to have that 
responsibility. We cannot be a permanent crutch. We have to 
transition. And we have seen that.
    As we have moved from district to district and province to 
province, we have turned over slowly and gradually and I think 
very intelligently greater responsibility to those Afghan 
National Security Forces. We haven't just said, woop, you are 
on your own and pulled out. We have been transitioning in a way 
to build their strength, capability, and durability.
    Now there are no guarantees, no doubt about that. This is a 
very, very difficult part of the world. It will be a very, very 
difficult part of the world 5 years from now, 10 years from 
and, odds are, 20 years from now. But we have put the Afghan 
National Security Forces in the best possible position to be 
able to, at a minimum, hold, to stop the Taliban from taking 
back over the government and giving Al Qaeda a safe haven.
    And as we go forward, we have to try to envision what our 
role is going to be. And I will agree with the Chairman, I 
think the single most important thing right now is to get that 
Bilateral Security Agreement to eliminate some of that 
uncertainty as to what exactly our role is going to be post-
2014.
    I know General Dunford is working hard on that. I know 
President Karzai is not always the easiest person to work with 
to get there, but I know that is a huge priority.
    But at the end of the day, we cannot stay in Afghanistan 
forever for a wide variety of reasons, but the only one I will 
point out here is that if we do, the Afghan government will 
never truly be sovereign, will never truly be stable, and will 
never truly have the respect of the Afghan people that it needs 
to be the sustainable government that we need it to be.
    So I think the path the President and General Dunford and 
others have put us on, though not easy, though not full of 
guarantees, it is the best, smartest path to put us in a 
direction where we can have the security goals that we strive 
for in that very, very difficult part of the region.
    I thank General Dunford again for his service. I look 
forward to his testimony and to the questions from the panel.

[GRAPHIC] [TIFF OMITTED] 80760.001

[GRAPHIC] [TIFF OMITTED] 80760.002

[GRAPHIC] [TIFF OMITTED] 80760.003

[GRAPHIC] [TIFF OMITTED] 80760.004

[GRAPHIC] [TIFF OMITTED] 80760.005

[GRAPHIC] [TIFF OMITTED] 80760.006

[GRAPHIC] [TIFF OMITTED] 80760.007

[GRAPHIC] [TIFF OMITTED] 80760.008

[GRAPHIC] [TIFF OMITTED] 80760.009

[GRAPHIC] [TIFF OMITTED] 80760.010

[GRAPHIC] [TIFF OMITTED] 80760.011

[GRAPHIC] [TIFF OMITTED] 80760.012

[GRAPHIC] [TIFF OMITTED] 80760.013

[GRAPHIC] [TIFF OMITTED] 80760.014

[GRAPHIC] [TIFF OMITTED] 80760.015

[GRAPHIC] [TIFF OMITTED] 80760.016

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 17, 2013

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI

    General Dunford. In Fiscal Year 13 (FY13) United States Forces-
Afghanistan (USFOR-A) spent $16.5M on construction for U.S. Forces in 
minor military construction, life/health/safety construction, and 
repairs. There is an additional $14.1M remaining. USFOR-A spent $178M 
on humanitarian/economic reconstruction, with an additional $400M 
remaining. [See page 21.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    General Dunford. Neither Afghanistan nor any of its regional 
neighbors carries out chemical or biological weapons programs. 
Extremist groups have developed and employed limited quantities of 
crude poisons; however, extremists have not shown the ability to 
develop or procure highly potent biological or chemical weapons.
    Both Pakistan and Iran are capable of producing radiological 
material, and limited quantities of radiological material may be 
accessible in the former Soviet Republics north of Afghanistan. The 
potential exists for this material to be used in conjunction with 
conventional explosives to form a radiological weapon; however, we have 
not witnessed such an attack, and we consider the threat of such an 
attack to be low.
    Finally, we are unaware of chemical, biological, or radiological 
weapons proliferation in the region. [See page 24.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. HANABUSA
    General Dunford. The Family Response Unit (FRU) program is an 
Afghan Ministry of Interior program and is not being eliminated. Over 
300 Afghan personnel remain assigned to the FRU in all 34 provinces and 
large districts. Currently, 22 contractors provide advisory support to 
the FRU program. Due to drawdown limitations affecting the contractors' 
security, logistics resupply, and effective FRU mentor auditing/
oversight, International Security Assistance Force's (ISAF's) NATO 
Training Mission-Afghanistan (NTM-A) decided to de-scope the advisory 
contract. However, the FRU program will remain an active Ministry of 
Interior Program. [See page 23.]
    General Dunford. Our assessment can only be given for contractors 
supporting the United States portion of the mission. Given United 
States Forces--Afghanistan's (USFOR-A's) current understanding of the 
mission, completion of retrograde, troop mix, and base structure, I 
anticipate requiring less than 13,000 contractors in support of the 
force. The mission support areas accomplished by contractors will 
include base support/logistics/maintenance, communications support, 
construction, training, translation services, intelligence effects 
services, transportation and Intelligence, Surveillance and 
Reconnaissance (ISR) operators. Depending on the final Force Management 
Level (FML) and mission assignments, other areas of support may be 
required as well. [See page 24.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. General, on April 16th, 2013, at the Senate Armed 
Services Committee, you highlighted the fact that there is growing fear 
and uncertainty within Afghanistan. With our focus shifting to a 
handover of security responsibilities, can you highlight the key areas 
and milestones that will need to be reached in order to reduce the 
probability of the Taliban succeeding in their ``fear campaign'' 
against the Afghanistan National Security Forces?
    General Dunford. There are two key areas that will help counter the 
Taliban's ``fear campaign,'' which is based upon the narrative of 
``abandonment'' by the West. The first is the Bilateral Security 
Agreement (BSA). The BSA is the physical manifestation of our public 
commitment to Afghanistan after the International Security Assistance 
Force (ISAF) mission ends in 2014. A BSA between the U.S. and 
Afghanistan will not only help instill confidence in the Afghan people 
regarding their future, but will also help provide our coalition 
partners the political capital necessary to garner support and 
incentivize commitment to the post-2014 mission. Greater commitment on 
the part of the international community will further negate the Afghan 
population's anxieties and the Taliban's narrative regarding 
abandonment.
    The second key area to countering the Taliban's ``fear campaign'' 
comes in the form of a successful 2013 fighting season for the Afghan 
National Security Forces (ANSF). This summer the ANSF will have the 
lead for security operations across Afghanistan, with ISAF in support. 
A confident and successful ANSF after the 2013 fighting season will 
drive down Afghan fears regarding security and establish a secure 
environment in 2014 that permits free, fair, and inclusive elections. 
With confidence in the ANSF to provide security and a successful 2014 
election that results in a peaceful transition of presidential power, 
the people of Afghanistan will have gained a major victory over the 
Taliban. The people of Afghanistan will have achieved the political 
stability and confidence to take advantage of a decade of opportunity.
    Mr. Langevin. General, most accounts portray the Taliban as a 
unified entity, but is the Taliban monolithic? Are there particular 
strains within that organization that are more willing to take concrete 
steps towards reconciliation, and conversely, are there hardline 
elements that are intractable?
    General Dunford. There is friction among different groups of 
Taliban members. This friction is caused by personal grievances, tribal 
differences and some ideological differences. Senior leaders have 
internal debates as to how to proceed in terms of talks with the United 
States. While there is debate, very few Taliban have actually taken 
steps towards reconciliation, and we assess there are only a handful 
now who are considering a break from the Taliban, but not enough to 
fracture the organization. The hardline elements firmly believe the 
Taliban can achieve their goals through military means and see no 
reason to engage in ``peace'' talks with the Unites States.
    Both the moderates and the hardliners may shift their position in 
the coming months based on factors which include, strength of ANSF, 
strength of the Afghan government--particularly the success of the 2014 
presidential election and the composition of the new government--and 
the commitment of the international community toward Afghanistan and 
enduring troop numbers.
    Mr. Langevin. General, is Pakistan a positive or negative force in 
getting the Taliban to the negotiating table?
    General Dunford. There are indications that the Government of 
Pakistan is reaching out to the Government of Afghanistan to build a 
foundation of cooperation. In November, Pakistan played a positive role 
when it hosted the Afghan High Peace Council, the only entity President 
Karzai authorizes to negotiate with the Taliban. However, I believe we 
need to remain fully engaged with Pakistan to continue to play a 
positive role in determining a long-term political solution between the 
Taliban and the Government of the Islamic Republic of Afghanistan.
    Mr. Langevin. General, as our forces draw down, how do you see the 
mixture of regular and special forces evolving? As one of the ``SOF 
Truths'' is that most operations require non-SOF assistance, are you 
confident that the remaining assets will have the support they need? 
Additionally, can you game out for this Committee potential outcomes of 
the Afghan Presidential 2014 election?
    General Dunford. SOF depend on general purpose force (GPF) enablers 
for continued operations supporting the current ISAF mission as well as 
the post-2014 mission in Afghanistan. GPF enabler support provides 
unique capabilities that are either not organic to SOF formations or 
are not organic in the quantity required to conduct special operations 
across a country the size of Afghanistan. Enabler support to SOF 
includes: ISR, force protection, MEDEVAC, forward medical support (e.g. 
forward surgical teams, Role II and III hospitals), route clearance 
packages, rotary wing lift and fires, fixed wing fires, and base 
infrastructure support. Planners from SOF and GPF have been working 
closely to analyze the impact of the force drawdown and ensure that the 
reduction of GPF enabler support are properly mitigated or their 
impacts are minimized.
    The International Joint Command (IJC) and NATO Special Operations 
Component Command-Afghanistan (NSOCC-A) staffs recently completed an 
analysis of the drawdown with a particular focus on identifying 
functional and geographic gaps, including the loss of enabler support 
to SOF. This analysis was briefed to me, and I am confident that our 
drawdown plan provides an adequate mix of SOF and GPF enablers to meet 
mission objectives. For the post-2014 mission, we are planning a force 
structure of SOF and GPF that will provide sufficient enabler support. 
However, if national leadership directs force levels below what we have 
recommended, there will be an impact on critical enabler support. With 
lower force levels and a reduced GPF footprint, there will be less GPF 
enablers available from which SOF can draw; this will limit SOF's 
ability to meet all expected objectives within the currently planned 
timelines for the post-2014 mission.
    The 2014 Afghan Presidential election outcome is best left to the 
Afghan people. Our mission is to ensure that ANSF are in the lead and 
are capable of providing security for the Afghan people moving forward. 
I would defer further comment on the Afghan elections to the State 
Department.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General Dunford, in last year's NDAA, Congress 
provided expanded authority to donate non-excess equipment to the ANSF. 
Has ISAF utilized this new authority? If so, to what extent? What types 
of equipment have been transferred?
    General Dunford. To date the International Security Forces-
Afghanistan (ISAF) and United States Forces-Afghanistan (USFOR-A) have 
not exercised this authority. We appreciate the expanded authority 
granted in last year's National Defense Authorization Act and expect 
that ISAF and USFOR-A will, over the course of the next 20 months, find 
these authorities useful as retrograde activities continue. We continue 
to track ANSF requirements that can be cross-matched against available 
non-excess material.
    Mr. Wittman. General Dunford, have you seen any decrease in the 
overall readiness of the U.S. forces that are being deployed to 
Afghanistan? Are they getting the training and equipment they need to 
operate in theater?
    General Dunford. U.S. Forces in Afghanistan are receiving all the 
equipment they need to successfully execute their missions of training 
and advising the Afghan National Security Forces. Moreover, U.S. Forces 
are properly equipped to protect themselves from insurgent attacks or 
take the lead in security operations, when necessary.
    Units and personnel are receiving the appropriate training prior to 
arriving in theater. Upon arrival in theater, U.S. Forces pre-
deployment training is augmented with in-theater/regional specific 
training to prepare units and personnel for the diversity of the 
mission environment. I am concerned that the effects of sequestration 
may negatively impact future home station pre-deployment training.
    Mr. Wittman. General Dunford, what are your top concerns and 
challenges with the reset and redeployment of U.S. Forces from 
Afghanistan? Furthermore, how do you ensure that we leave a secure 
footprint for the enduring conventional and Special Operations Forces 
that will operate in Afghanistan post--2014?
    General Dunford. The resetting of each Service's equipment 
represents our biggest challenge as it is essential to future military 
readiness. Each Service will identify equipment that will be processed, 
returned, reset and placed back into the fleet. Once the last piece of 
equipment leaves Afghanistan, it is really at this point that the reset 
process begins since OCO funding for reset will be needed for 3 years 
beyond that date. Consequently, Overseas Contingency Operation (OCO) 
funds will be a necessity for all Services after we drawn down all the 
deployed equipment to bring it back to fully mission capable standards. 
As we reduce our footprint in theater, we are reviewing options for our 
enduring presence locations that are within range of high-quality 
medical care; maintaining ground and aerial quick reaction forces to 
provide support; and ensuring Intelligence, Surveillance and 
Reconnaissance (ISR) assets are in place to protect the force.
    Mr. Wittman. General Dunford, in light of Pakistan's repeated and 
extended closures of cargo transportation routes to the Port of 
Karachi, what are your concerns about our continued heavy reliance on 
Pakistan for logistical support for operations in Afghanistan? What 
other options beyond existing Northern Distribution Networks (NDN) is 
ISAF exploring?
    General Dunford. Equipment is currently flowing through the 
Pakistan Ground Lines of Communication (PAKGLOC) and I believe these 
routes offer the best option for removing our equipment from 
Afghanistan. If required, we could move all of our equipment out by air 
or by a combination of other means, but at a higher cost from a fiscal 
and time perspective. We plan to maximize our usage of the PAKGLOC as 
the most cost effective and efficient means. In addition the arrival of 
a CENTCOM Material Retrograde Elements (CMRE) late in FY 2012 to 
oversee our retrograde efforts will be helpful in managing the PAKGLOC.
    Mr. Wittman. General Dunford, with regard to the troop drawdown 
strategy, what are specific conditions on the ground, relating to both 
Afghan National Security Force capabilities and the capabilities of the 
enemy you will be examining to manage the U.S. troop drawdowns? What 
are the largest gaps in the capabilities of the Afghan National 
Security Force today that need to be improved by 2014 for the Afghan 
security forces to maintain a stable Afghanistan?
    General Dunford. I will be specifically examining the combat 
effectiveness and confidence of the ANSF to protect the people with 
minimal support from the coalition. In terms of the enemy, I will 
examine signs of their increased isolation from the people and 
leadership conflicts that can create opportunities to divide them. 
These factors will help me determine my recommendation to the President 
on future troop drawdowns.
    Our long-term goal is to build sustainable processes with the ANSF. 
The largest gap in capabilities of the ANSF today is close air support 
and that won't be addressed until after 2014. It will take until 2016 
or 2018 before the sustainable air support program will be sustainable. 
I would emphasize that in order for our gains to be sustainable, we 
must maintain our train, advise, and assist mission at the Corps level 
post-2014.
    Mr. Wittman. General, two years ago General Petraeus testified 
before this committee saying, ``As a bottom line up front, it is ISAF's 
assessment that the momentum achieved by the Taliban in Afghanistan 
since 2005 has been arrested in much of the country and reversed in a 
number of important areas. However, while the security progress 
achieved over the past year is significant, it is also fragile and 
reversible. Moreover, it is clear that much difficult work lies ahead 
with our Afghan partners to solidify and expand our gains in the face 
of the expected Taliban spring offensive.'' General with the effort to 
draw down our forces by the end of 2014, are we still willing to 
concede that our progress is fragile and reversible? It seems that 
outside of the Taliban and the terrorist networks operating in and 
around Afghanistan our biggest enemy is time. Do you have enough time 
to execute a sound, measured, responsible drawdown while still 
maintaining a force capable of training the ANSF to take the lead and 
keep the Taliban and terrorist networks from resecuring a foothold in 
Afghanistan?
    General Dunford. Each day the ANSF is growing stronger and more 
confident. I have no doubt they will perform commendably during this 
fighting season. Thus, while I would not call our progress to date 
fragile, I would call it reversible. For that reason, it will be 
important for the U.S., our coalition partners, and the Government of 
the Islamic Republic of Afghanistan (GIRoA) to honor the pledges made 
at Chicago and Tokyo.
    I think we have a measured and reasonable approach for our drawdown 
while we shift our mission focus to train, advise, and assist in 
support of the Afghan National Security Forces (ANSF). ISAF is engaged 
down to the battalion level with the ANSF in the lead for the first 
time this summer. We are already at the point where the vast majority 
of U.S. forces are in a train, advise, and assist configuration. I am 
confident the ANSF, with our support, can keep the Taliban and 
terrorist networks from resecuring a foothold in Afghanistan during our 
drawdown.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. General Dunford, Pakistan's internal stability and 
economic development during and after the upcoming elections will 
undoubtedly affect our drawdown of U.S. forces in Afghanistan. In your 
testimony, you mentioned insurgent sanctuaries in Pakistan. If we 
continuously have to engage terrorist forces in Pakistan, with 
increasing chaos in the region, our transition from Afghanistan will be 
challenging. What sort of relationship would you like to see with the 
next Pakistani government, that will help to protect our interests in 
Afghanistan and how should we engage Pakistan in the coming months and 
after the election?
    General Dunford. We recognize the historic significance of the 
upcoming election as a true watershed moment with the first transfer of 
power from one democratically elected civilian government to another. 
Regardless of which party wins, we will continue to positively engage 
with the new Pakistani government as before. From a U.S. Forces--
Afghanistan (USFOR-A) perspective, we will continue our positive 
military-to-military relationship with Pakistan to further our national 
interests in the region.
    Mr. Barber. General Dunford, thank you for appearing before the 
Committee for this important update. Sir, you mentioned in your 
testimony and I complete agree that border security between Afghanistan 
and Pakistan is interdependent upon both countries' efforts; however, 
their relationship has ebbed and flowed over time. It seems to me that 
for decades Pakistan has focused its regional strategy on its borders--
whether competing with India for nuclear dominance, or seeking to 
influence what happens in Afghanistan. We saw this during the eighties 
with the Soviet invasion, and over the past ten years as we have sought 
to bring down the Taliban and Al Qaeda. As Pakistan continues to depend 
on U.S. military and economic support, how can we encourage more 
Pakistani involvement in border security, our efforts to defeat the 
Taliban, and end the war in Afghanistan?
    General Dunford. ISAF strongly encourages Pakistan and Afghanistan 
to discuss border issues within the Tripartite Commission. In November 
2012, the Tripartite Commission approved the Tripartite Standard 
Operating Procedure (SOP). The framework of the SOP serves as a 
tangible demonstration of security cooperation and strategic outreach. 
The SOP defines the Border Coordination Area to ensure common reporting 
standards, establishes a uniform set of protocols to enhance 
coordination and communication on both sides of the border, minimizes 
cross-border incidents, mitigates incidents of fratricide, and 
establishes information sharing requirements. We need to continue to 
encourage both parties to abide by the SOP to better manage border 
tensions and more effectively control the border in denying the Taliban 
freedom of movement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. Do you believe that President Karzai or any future 
President of Afghanistan can be a unifying figure that can successfully 
dissuade the Afghan people from violence? Or do you believe this type 
of persuasion is going to have to come from local officials and 
religious figures? How is the United States military addressing the 
strengths and weaknesses of top Afghan officials to promote a more 
secure country?
    General Dunford. President Karzai can be a unifying figure for the 
Afghan people. For example, he has sought to build consensus by holding 
a National Consultative Peace Jirga in 2010 declaring that the doors of 
peace will remain open to all those who renounce violence, cut links 
with terrorist organizations, return to a peaceful life, and respect 
the Afghan Constitution. This assembly led to the establishment of the 
Afghan High Peace Council. These efforts address concerns across a 
wide, multi-ethnic body.
    As with any federal government, the Government of the Islamic 
Republic of Afghanistan (GIRoA) would function more efficiently with 
the support of local officials. At the local level, ISAF supports 
GIRoA's Afghanistan Peace and Reconciliation Process (APRP) which 
encourages insurgents to abandon extremism. APRP aims to build trust 
and confidence among Afghans who have been fighting their government 
and each other for far too long.
    In its advisory mission with the security ministries, U.S. Forces--
Afghanistan (USFOR-A) and the International Security Forces--
Afghanistan (ISAF) are working to increase institutional capacity, 
while also supporting the Afghan government's program to combat 
corruption. Reducing corruption is essential to enhancing the 
legitimacy of the government and thereby strengthens the abilities of 
top Afghan officials to promote security. Our partners in the 
Ministries of Defense and Interior have demonstrated a willingness to 
remove corrupt officials and enhance the legitimacy and strength of 
their institutions in providing security to Afghanistan.
    Mr. Carson. What impact does corruption have on the safety and 
security of our forces in Afghanistan today? To what degree are 
corrupted officials, troops and police complicit in attacks on our 
forces and what steps are being taken between now and 2014 to address 
this corruption?
    General Dunford. Corruption has an indirect impact on the safety 
and security of our forces. There is little direct evidence tying 
corrupt officials, troops, or police to attacks on our forces. However, 
corruption does contribute to an environment under which insurgents, 
criminals, and lethal aid transit Afghanistan's borders and move within 
the country. Multiple efforts to address corruption, including prudent 
force protection measures, engagement with Afghan security ministries, 
fielded forces, working with inter-agency partners and the 
International Community to improve internal controls and external 
verification mechanisms have been underway for several years, and will 
continue through 2014 and beyond. As we transition to a Security Force 
Assistance role and later to the post-ISAF mission, anti- and counter-
corruption efforts will increasingly rest with the Afghans themselves.
    Mr. Carson. While we have had special forces units based in 
Afghanistan, there have been occasions when specialized units have been 
brought in for missions targeting high-value targets--like Seal Team 
Six with Osama bin Laden. How will the change in our force structure 
and mission impact our pursuit of high-value targets in Afghanistan 
post-2014?
    General Dunford. The use of a specialized SOF unit from outside 
Afghanistan to conduct a mission like the Osama bin Laden raid in 
Pakistan has been extremely rare. The vast majority of our missions 
pursuing high value targets (HVT) are done by forces present in 
Afghanistan. For our post-2014 mission, we have planned a highly 
capable SOF force structure that can conduct the full range of special 
operations, to include pursuing HVTs. This planned force will be 
smaller than our current force which will reduce the number of targets 
that we can pursue at any given time. Our planners have designed the 
SOF structure in accordance with specific restrictions from national 
leadership regarding the types of targets that we are authorized to 
engage post-2014; this allows us to maintain a smaller force. However, 
SOF will continue to train, advise, and assist (TAA) Afghan special 
security forces (a mix of Afghan SOF and special police units) at the 
ministerial, institutional, operational and tactical levels. This will 
enable the Afghans, who will be clearly in the lead for their own 
security, to pursue Afghan-designated HVTs.
    In this regard, we view our post-2014 TAA and counter-terrorism 
(CT) missions as being inextricably linked. Finally, as with the Osama 
bin Laden raid, United States Central Command (USCENTCOM) retains the 
capability to bring in specialized units for short-notice missions to 
pursue HVTs if outside of Afghanistan.
    Our biggest concern for this capability will be the availability of 
bases from which such a force can operate on short notice. While we 
feel confident that we will retain sufficient bases to support these 
missions, this is subject to the results of the ongoing Bilateral 
Security Agreement negotiations between the United States and 
Afghanistan.
    Mr. Carson. In 2010 there were reports that upwards of $1 trillion 
worth of mineral deposits have been found within Afghanistan. These are 
obviously of significant interest to the international business 
community, which is seeking inroads for lucrative mining contracts. 
However, we also know from history that such mineral deposits often 
become grounds for serious internal and regional conflicts. What risks 
do you see in this area and do you believe that foreign military or 
security forces will attempt to set up operations in Afghanistan to 
protect their national business interests brought in for mining 
operations? Are issues involving these minerals causing any challenges 
for you?
    General Dunford. The greatest challenge at this point is for 
Afghanistan to have a sustainable legal, physical and security 
infrastructure that will encourage investment, while allowing the 
Afghan people to leverage the mineral wealth in developing their 
economy. It is unlikely a foreign military force will establish a 
significant presence in order to secure its extractives investment. The 
cost of the military operation would make Afghanistan a more costly 
place to do business than a competing mineral rich nation. Most likely, 
companies will use indigenous Afghan security (e.g. Afghan Public 
Protection Force) forces for security. The international business 
community has some reservations about investing in Afghanistan's 
mineral wealth given the absence of a legal framework that enables 
predictability, transparency and oversight. Without a more attractive 
investment climate, the business community will question the risk and 
profitability of investing in Afghanistan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. What are the lessons learned with multilateral 
relationships in Afghanistan and how can we export what has been 
learned to other areas where we have little or no physical presence 
like AFRICOM?
    General Dunford. Many of our coalition partners bring unique 
strengths to ISAF. The coalition has become quite proficient at 
leveraging the strengths of each contributing nation. This synergy 
strengthens the ISAF mission and it increases the pride, political 
will, and commitment of our partners. We have learned to provide 
enabling support to overcome some of our partners' limitations and take 
advantage of their strengths. For example, providing something as 
simple as medical evacuation support might permit a country to play a 
significant role in advising and assisting Afghan forces or a combat 
mission.
    Another important lesson learned is the value of enduring military-
to-military relationships. When I was a battalion commander at Camp 
Lejeune, North Carolina in 1996, I had a Georgian platoon serving with 
me under the NATO Partnership for Peace program. In all there were 19 
former Soviet bloc nations that came to the United States to begin to 
learn our tactics, techniques and procedures and some of the cultural 
dynamics that make modern, professional armies. Today I'm proud to tell 
you that there are 1,500 Georgians in Helmand Province; they are 
battlespace owners and they are conducting complex counterinsurgency 
operations. Where they are today versus where they were in 1996 is 
nothing short of profound. I think it came from our investment in our 
coalition partners over the decades. These lessons are easily applied 
anywhere and do not require an actual physical presence. Nearly any 
willing partner can make a consequential contribution.
    Mr. Enyart. What has been the impact on USMC in terms of readiness 
as QRF?
    General Dunford. As a former Assistant Commandant of the Marine 
Corps, I believe this question would be best answered by the current 
Commandant of the Marine Corps or the Joint Staff.

                                  <all>

</pre></body></html>
